<html>
<title> - THE ADMINISTRATION'S RELIGIOUS LIBERTY ASSAULT ON LGBTQ RIGHTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                     THE ADMINISTRATION'S RELIGIOUS
                    LIBERTY ASSAULT ON LGBTQ RIGHTS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2020

                               __________

                           Serial No. 116-93

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      


                 Available on: http://www.govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
39-931 PDF            WASHINGTON : 2020                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Ralph Norman, South Carolina
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Frank Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland, New Mexico

                     David Rapallo, Staff Director
                        Janet Kim, Chief Counsel
                          Taylor Jones, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2020................................     1

                               Witnesses

Panel 1
The Honorable Sean Patrick Maloney, Member of Congress
    Oral Statement...............................................     7
The Honorable Mark Takano, Member of Congress
    Oral Statement...............................................     9
The Honorable Mike Kelly, Member of Congress
    Oral Statement...............................................    12
The Honorable Joseph P. Kennedy, Member of Congress
    Oral Statement...............................................    14
Panel 2
Ernesto Olivares, San Antonio, Texas
    Oral Statement...............................................    17
Evan Minton, Livermore, California
    Oral Statement...............................................    18
Sarah Warbelow, Legal Director, Human Rights Campaign
    Oral Statement...............................................    20
Hiram Sasser (Minority Witness), Executive General Counsel, First 
  Liberty Institute
    Oral Statement...............................................    22
Rev. Stan J. Sloan, Chief Executive Officer, Family Equality 
  Council
    Oral Statement...............................................    24
*Opening statements, and the prepared statements for the 
  witnesses are available at:  docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below are available at: docs.house.gov.

  * Letter from His Excellency George Murray Bishop of 
  Youngstown; submitted by Rep. Massie.

  * Testimony of David Dixon, Rancho Santa Margarita; submitted 
  by Rep. Porter.

  * Letters from several organizations; submitted by Rep. Raskin.

  *  Statement for the record from Congressman Raul Grijalva; 
  submitted by Rep. Raskin.

  * Testimony of Daryle Conquering Bear, Every Child Deserves a 
  Family Act; submitted by Rep. Haaland.

  * Rep. Connolly statement for the record.

  * WDET article; submitted by Rep. Tlaib.

  * Statement from Curtis Lipscomb, LGBT Detroit; submitted by 
  Rep. Tlaib.

  * Letter from Child Welfare League of America.

  * Letter from Equality California.

  * Five Letters and testimony from National Center for 
  Transgender Equality.

  * Letter from American Atheists.


                     THE ADMINISTRATION'S RELIGIOUS

                    LIBERTY ASSAULT ON LGBTQ RIGHTS

                              ----------                              


                      Thursday, February 27, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 9:04 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn 
Maloney,[chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Lynch, Connolly, 
Krishnamoorthi, Raskin, Rouda, Sarbanes, Welch, Kelly, 
DeSaulnier, Ocasio-Cortez, Pressley, Tlaib, Porter, Haaland, 
Jordan, Foxx, Massie, Meadows, Hice, Grothman, Comer, Cloud, 
Gibbs, Norman, Roy, Miller, Steube, and Keller.
    Chairwoman Maloney. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for an opening statement, and good 
morning and thank you all for coming today.
    When Donald Trump was inaugurated in 2017, many of us 
worried about the danger that a Republican administration could 
pose to lesbian, gay, bisexual, transgender, and queer peoples' 
rights.
    When Donald Trump campaigned he gave lip service to caring 
about LGBTQ rights. But immediately after he took office, his 
administration began undermining vital LGBTQ rights.
    The White House started out by removing all mentions of 
LGBTQ rights or people from its website and it has gone down 
since then. The Trump administration quickly dismantled 
important legal and regulatory protections for LGBTQ people 
that adopted discriminatory rules and undermined protections 
for LGBTQ people.
    LGBTQ people face real dangers in our society. A month ago, 
a transgender woman, Serena Daniari, was physically attacked in 
a New York subway by individuals who yelled homophobic slurs at 
her.
    I was horrified that this hate crime happened in the city I 
represent, New York City, one of the most progressive cities in 
the world. Transphobia, racism, and homophobia are real and 
LGBTQ people face real harms and real violence in their daily 
lives and that is precisely why the Federal Government must act 
to protect all LGBTQ people against harm.
    One of the most cynical aspects of the administration's 
effort is how it has emboldened discrimination by distorting 
claims of religious liberty. The Trump administration is 
dividing America and pitting American citizens against each 
other.
    That is a false choice. For years, Federal law has 
protected the rights of individuals and organizations to 
observe religious and moral tenets without unduly burdening the 
health and welfare of others.
    Let me make one thing crystal clear. I am a strong 
supporter of religious liberty. But it should not be distorted 
and twisted into a weapon to enable discrimination.
    Scrubbing the White House website of references to gay 
people has nothing to do with religious freedom. It has 
everything to do with the Trump administration's assault on the 
LGBTQ community.
    Today, we will hear directly from some of our distinguished 
colleagues who understand the importance of protecting and 
strengthening rights of all people including the LGBTQ 
community.
    We will also hear from witnesses on the forefront of the 
fight for LGBTQ equality including individuals who have 
personally felt the impact of anti-LGBTQ discrimination.
    The Oversight Committee will continue to combat this 
administration's abuses and we will support our friends and 
neighbors who are being unfairly targeted by the president and 
his administration.
    I want to add one last thing. The House passed the Equality 
Act on a bipartisan basis on May 17, 2017. That bill would add 
explicit protections against discrimination for LGBTQ 
individuals.
    The Equality Act is sitting on Mitch McConnell's desk. 
Senator McConnell won't even give us the courtesy of a debate, 
even though senators from his own party support the bill.
    I would urge him to change his stance. This is an issue of 
the utmost importance for our friends, our neighbors, our 
children, and our colleagues. America deserves a debate and a 
vote on the Equality Act.
    With that, I would like to thank my good friend, Jamie 
Raskin, for his leadership on this important issue as chairman 
of our Subcommittee on Civil Rights and Civil Liberties.
    And I yield to him.
    Mr. Raskin. Thank you, Madam Chair, and I appreciate very 
much your calling this hearing for the full committee and I 
welcome all of our witnesses today.
    The extraordinary transformation that our country has 
experienced in the last decade on the question of marriage 
equality illuminates pretty much everything we need to know 
about how to reconcile the principles of individual religious 
freedom and equal protection under the law for all people.
    Equal protection means that everyone, regardless of race, 
gender, or sexual orientation, must enjoy equal rights under 
the law.
    That means that the institution of civil marriage cannot be 
roped off to discriminate against millions of gay and lesbian 
citizens for no compelling reason, and as the court found in 
the Obergefell decision, other people's moral or religious 
disapproval of gay people getting married cannot constitute a 
compelling reason for canceling out their fundamental right to 
marry the person that they love.
    So,we learned that no matter how much same-sex marriage 
violates your religious scruples and beliefs you have no 
religious liberty right to impose your position through law and 
government on other people to interfere with their freedom.
    This is a principle so powerful the Supreme Court struck 
down discriminatory and exclusionary marriage provisions that 
have been on the books for centuries.
    The successful struggle over marriage equality liberated 
millions of people to participate on an equal basis in this 
central institution in society. It also established a new norm 
for inclusion in equal rights that has encouraged the LGBTQ 
community to demand full equal rights across the board.
    But it did not leave anyone in our country with diminished 
religious freedom. If a state or a city ordered a church, 
mosque, or synagogue to conduct religious weddings for same-sex 
couples, the churches would absolutely win their right not to 
do so.
    They have a First Amendment free exercise right to marry or 
not marry exactly who they please within their own churches. 
The Constitution decides who gets married in City Hall but the 
church decides who gets married in the church hall. This is a 
central aspect of religious free exercise.
    The big question has been whether private businesses in the 
stream of commerce like restaurants, movie theaters, and 
apartment buildings where federally funded organizations like 
hospitals and foster care agencies can decide not to serve, 
rent to, or do business with LGBTQ Americans if they are 
obligated to do so under law but assert that it would violate 
their religious beliefs to do so.
    There may be a handful of close calls in harmonizing 
individual religious freedom and equal rights. But the vast 
majority of cases are, in fact, easy.
    Yet, alas, the Trump administration has been working 
zealously to turn the government into an instrument of 
hostility and opposition toward LGBTQ rights across the 
executive branch of government.
    Since inauguration day, the administration has worked to 
purge all mention of LGBTQ rights and to systematically roll 
back protections for that community in Federal law and policy.
    Following inauguration, agencies across the executive 
branch began undermining and stripping vital protections. The 
Trump administration Department of Justice has filed several 
amicus briefs advocating for legal interpretations that erode 
civil liberty protections.
    DOJ also filed an amicus brief in the Masterpiece Cake Shop 
case, arguing that a cake shop owner does not have to serve gay 
customers because it violates the First Amendment to force them 
to create expression for and participate in a ceremony that 
violates his sincerely held religious beliefs.
    This is the exact same argument that the Supreme Court 
rejected in the 1960's in cases repudiating the alleged 
constitutional right of restaurant and lunch counter owners to 
refuse to serve African-American and interracial parties as a 
burden on their religious or associational freedom.
    The Trump administration Department of Health and Human 
Services has similarly been instrumental in the campaign to end 
protections for LGBTQ individuals. The administration has 
rapidly turned "religious liberty", in quotes, into a pretext 
and excuse for denying LGBTQ citizens the ability to 
participate equally in all aspects of the economy and society.
    On May 2 last year, HHS finalized a rule that dramatically 
expanded the ability of health care providers to deny services 
based on religious or moral objections.
    The administration cited the case of our witness, Evan 
Minton, as an example of the need for the rule in order to 
permit more discrimination against patients like him.
    The Trump administration used everything in its power 
including executive orders, litigation decisions, amicus 
briefs, and agency guidance and regulations to undermine 
protections for LGBTQ people and expand the availability of 
religious exemptions.
    These actions go against the true meaning of both religious 
liberty and equal protection under the law. These two values 
stand best when they stand together.
    Indeed, the religious liberty of the people is protected by 
vigorous enforcement of equal protection in the establishment 
clause.
    As Madison emphasized, the major threat to my religious 
freedom comes from another person or group's capture of state 
power and their use of government to impose their religious 
dogma and control on everyone else.
    Today, the equal rights of the LGBTQ community are 
threatened by the administration's determination to pass out 
licenses to discriminate based on the rampant misinterpretation 
of the meaning of religious liberty.
    Thank you for calling the hearing, Madam Chair, and I yield 
back.
    Chairwoman Maloney. Thank you.
    I now yield to Mr. Hice, ranking member representative.
    Mr. Hice. Thank you, Madam Chair, and I would like to thank 
everyone for being here and our fellow representatives, thank 
you, and the next panel to come.
    The title of the hearing today, ``The Administration's 
Religious Liberty Assault on LGBTQ Rights,'' is in itself, to 
me, a fundamental misconception of reality.
    To begin with, the notion that the Trump administration is 
somehow attacking the LGBTQ community is just wrong. The United 
States continues to be a world leader in guaranteeing the civil 
rights of all including the LGBTQ community.
    Under President Trump, the Federal Government has sought to 
treat all Americans, gay or straight, religious, nonreligious 
fairly and justly, and I think even given the recent nomination 
of Richard Grenell as the director of National Intelligence is 
yet another example of that.
    President Trump, in my opinion, is striving to bring the 
rest of the world into line with our country which provides the 
greatest freedoms for all our citizens. The freedom to believe, 
the freedom to speak freely. Freedom to pray, freedom to 
associate.
    These are freedoms that allow all Americans to live 
according to their deeply held beliefs and convictions, and as 
we all know in this room, we have had individuals who have 
fought and died for these rights with Americans and I believe 
it is important that we continue that.
    I am deeply concerned that we are living in a time where so 
many seem to misunderstand the meaning of the First Amendment.
    I mean, we are talking about inalienable rights, rights 
that we as a nation fundamentally believe have been given us by 
God, not by government, and right at the beginning of that is 
the First Amendment where we are told that Congress shall make 
no law establishing religion or prohibiting the free exercise 
thereof.
    So,we see that Congress cannot mandate a national religion. 
We get that. But we also understand from this that neither can 
Congress prevent Americans from practicing their faith in the 
public square, and fundamentally the First Amendment protects 
Americans from an ideological coercion from government.
    And this is the rub for me--the part that becomes difficult 
for many of us. But I believe and I have seen personally, 
tragically, that for years now we have watched religious 
liberties in this country be under siege and attacked, often 
under the false guise of fighting discrimination and enforcing 
tolerance.
    Make no mistake, discrimination is wrong. It is un-
American. And to fight against discrimination is worthy. It is 
the right thing to do. It is honorable in every way.
    But the right to disagree with someone without the 
government interfering to promote one viewpoint over another is 
at the core of what the First Amendment is all about. I think 
Supreme Court Justice Alito had it right when he warned all of 
us that using anti-discrimination laws as a back door to, 
quote, ``stamp out every vestige of dissent,'' end quote, is 
equally just as wrong, and I believe that is precisely what is 
at stake here.
    I know we all have different views. I respect that. But my 
sincere concern is that too many on the left would like to 
shame and vilify millions of religious Americans and thousands 
of faith-based organizations nationwide simply because they 
don't share the same liberal beliefs as those on the left.
    I believe many on the left have become relentless in trying 
to force others to accept their own views across society. For 
example, in 2017 the Supreme Court ruled that individuals 
cannot be targeted for their religious beliefs and that open 
hostility to religion has no place in our society.
    Yet, in spite of that, Masterpiece Cake Shop owner Jack 
Phillips was targeted not once, not twice, but three times 
because of his deeply held religious beliefs on marriage.
    Barronelle Stutzman, the florist, went through similar 
things. There are many examples. The targeting of this nature 
has now expanded far beyond its initial focus on artistic 
expression of a baker or a florist and now the left is adopting 
these same tactics to create mandates forcing pharmacists to 
dispense chemical abortion drugs or medical professionals to 
perform abortions against their deeply held beliefs.
    Take, for example, the Little Sister of the Poor. Obamacare 
forced them to provide contraceptives against their beliefs, 
and now that is going before the Supreme Court yet again.
    This is not religious freedom and I believe that 
increasingly we are seeing Democrats want faith-based adoption 
foster care agencies to either violate their religious beliefs 
that it is their duty to place children in homes with moms and 
dads or to shut down altogether, to do what the left wants or 
to be excluded from operating in the public square.
    When Catholic Charities were shut down in Illinois there 
were nearly 3,000 children displaced. So,whatever our political 
or cultural views, I think surely we can all agree that 
vilifying well-intentioned and loving charities like faith-
based foster homes does not help anyone.
    But this assault on religious liberties is certainly not 
confined to faith-based organizations. All across America now 
from school rooms to social media platforms we are seeing 
social justice crusades increase against those who have not 
accepted the new cultural norms of the left.
    We saw, for example, in Obama--when the Obama 
Administration adopted the change in Title 9 to impose gender 
identity mandates on federally funded schools and we saw many 
Christian colleges and universities trying to keep their exempt 
status only to find themselves placed on shame lists where they 
have experience massive pressure campaigns to relinquish their 
long-held religious beliefs on sexuality.
    In Florida, there is an activist campaign underway to 
attack and defund Christian schools that participate in 
educational tax credit programs and those companies who support 
these scholarships of underprivileged children to get a better 
education, those companies themselves are experiencing massive 
pressure to defund these schools. And it is only the kids who 
end up suffering.
    Currently, the Virginia General Assembly is poised to adopt 
sexual orientation and gender identity legislation that I 
believe will severely impair freedom in religious schools and, 
unfortunately, I believe when all is said and done here these 
are nothing but measures that open the door for government-
mandated discrimination and coercion.
    So, this hearing really, to me, is an attempt really to 
polarize what has always been a unifying factor in American 
society and culture and that is religious freedom--the right 
for everyone to live and express their beliefs in the public 
square.
    In closing, I, again, just want to say thank you to each of 
you who are here and for those who will be joining the next 
panel. I know without question we are going to hear some moving 
and compelling stories and many of you have been through some 
very difficult times and have experienced discrimination, and 
for that I am deeply sorry. That kind of behavior should never 
happen in America and you should never have experienced it.
    But at the same time, I wonder where are the other 
witnesses, individuals who have lost virtually they have had 
because they have tried to stand for their religious beliefs 
and live according to those beliefs in the public square.
    So, I thank you, Madam Chair, for holding this hearing. 
Mike Kelly, thank you for being here today to share your 
perspective. Hiram Sasser, I am looking forward to hearing as 
well, and to each of you I want to thank you and I look forward 
to our time together.
    With that, I yield back.
    Chairwoman Maloney. Thank you.
    I will begin by welcoming our first panel of witnesses. Our 
first witness is Congressman Sean Patrick Maloney, a member of 
the Maloney Caucus but not a relative, but a very good friend.
    [Laughter.]
    Chairwoman Maloney. He has represented New York's 18th 
congressional District since 2013. He is a co-chair of the 
congressional LGBT Equality Caucus.
    Mark Takano--Congressman Takano--has represented 
California's 41st congressional District since 2013. He is also 
co-chair of the congressional Equality Caucus.
    Mike Kelly--he has represented the 3d District of 
Pennsylvania since 2011, and Joe Kennedy III has represented 
Massachusetts' 4th congressional District since 2013. He chairs 
the congressional LGBT Caucus's Transgender Equality Task 
Force. He also introduced the Do No Harm Act.
    Mr. Maloney, you are--Representative Maloney, you are 
recognized.

STATEMENT OF SEAN PATRICK MALONEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Maloney. I thank the chairwoman.
    Thank you, Chairwoman Maloney, Ranking Member Hice. I thank 
the committee for having this important hearing today.
    You know, in listening to the ranking member's opening 
remarks, I was thinking maybe the day will come where people 
like me and Mark, some of the people behind us, won't have to 
come in here like supplicants seeking our basic rights and we 
won't be treated to expressions of discrimination dressed up as 
religious liberty.
    But even today, that is not the country we live in. You 
know, I have been with my husband for almost 28 years. We were 
allowed to get married just five years ago, and for 27 of those 
years we have been raising children. We have three children.
    My oldest came to us when he was not quite three years old. 
He had been barely eating solid foods. He was sleeping in a 
drawer. He was living in squalor in one of the toughest 
neighborhoods in New York City. His parents were heroin 
addicts. They had four children. I think they loved their 
children. I know they loved drugs more, and they were unable to 
take care of them.
    We didn't set out to be parents. This wasn't about 
fulfilling some desire we had. It was because someone asked us 
if we could help and we said we would. And soon after that his 
mom OD'd and there was no one to bury her, so we did.
    His dad went to jail and there was no one to take care of 
this little boy, so we did. And it was the greatest thing that 
ever happened to us. We had been together for four months as a 
couple.
    That young man is 30 years old today, and I think if you 
asked him, Representative Hice, about the family he was raised 
in--well, let us just say I would go with what he has to say 
about the ability of LGBT couples to parent and to foster.
    You know, it was a few years later that an adoption agency 
called us from Texas, sir--a group called the Adoption Alliance 
that was licensed in Texas and Nevada--and the reason they were 
calling us in New York was not because we were seeking to 
adopt.
    It was because they had learned in the 1990's that there 
were certain types of kids who were not going to be adopted, 
where the circumstances of their birth through no fault of 
their own, obviously, was difficult or confronting for 
traditional adoptive parents, where there were issues of HIV or 
rape or incest, sometimes mixed with concerns about interracial 
adoption.
    And what these adoption agencies learned to their credit 
was that there were LGBT couples in cities like New York who 
would say yes to these children. Not as an alternative to the 
straight couple that was going to raise them, but as an 
alternative to never being adopted because no one was going to 
adopt these kids.
    It was that insight that LGBT couples were willing to cross 
lines of difference because they had experienced doing so in 
their own lives that they had less preoccupation or hysteria 
with things like HIV that they were more willing to adopt 
across lines of difference like race or religion--that there 
was an opportunity for kids that would not have a home to have 
a home.
    So, it is because of that that on January 10, 2001, I 
learned of my oldest daughter, who had been born just five days 
earlier--we had no intention of adopting--that she had been 
born in Texas to a United States military member--excuse me, to 
the granddaughter of a United States military member.
    Her mom was 14 years old. She didn't even know she was 
pregnant. She was playing basketball and complained of cramps 
and delivered the baby when the doctors thought she had 
appendicitis.
    They called us because no one else was going to do it. So, 
13 days later my partner and I were standing in front of a 
Texas judge at 8 o'clock in the morning before his docket 
started and he said, ``Are you fellows going to raise this 
child?'' We said, ``Yes, sir,'' and he finalized the adoption 
on the spot. No rescission rights in the state of Texas.
    Thirteen days after that child was born she was home in New 
York with two loving parents and that child is 19 years old 
today and a freshman at John Jay College in New York. She is a 
beautiful young woman. And she would not have had a mom and a 
dad.
    So, you keep having them and we will keep raising them is 
the way we felt about it.
    Did she deserve a mom and a dad? Yes, she did. But she also 
deserved people who loved her who were going to raise her and 
that is what is at stake today.
    Our third child, the adoption agency--same one--two years 
later came to us. Same story. Very similar. They sought out 
LGBTQ parents because they knew they would adopt when others 
wouldn't.
    So, the point is--the point is is when you allow people to 
discriminate against those couples, you deprive children of 
good moms, dads, families who are going to love them; and when 
you dress it up as religious liberty you simply sanction 
discrimination and deprive those children of a home that they 
deserve.
    We are here because the Trump administration, as we know, 
has green-lighted license to discriminate laws to allow 
federally funded organizations--federally funded 
organizations--to discriminate against adoptive and foster 
parents who don't share the organization's religious beliefs 
and that means also LGBTQ parents and people of other religions 
won't be able to adopt. Those kids are the ones that are going 
to lose. Hundreds of thousands of kids who are--who need foster 
parents, who need adoptive parents.
    That is the collateral damage that will ensue if we allow 
these discriminatory practices to occur under the guise of 
religious freedom.
    Our only goal, when providing--our only goal when providing 
child services should be looking out for the best interests of 
the kids. That is all that matters. LGBTQ couples are not 
afraid of that test.
    Parents are parents. Good parents are good parents. Bad 
parents are bad parents, and it doesn't matter what they look 
like, who they love.
    So, I have, of course, joined my colleagues in writing the 
secretary of Health and Human Services opposing the South 
Carolina waiver allowing federally funded foster care agencies 
to deny services to same-sex and non-Christian couples, making 
clear that his agency is misusing Federal law to allow these 
organizations to discriminate against LGBTQ people and other 
people of other religions.
    I support Representative Kennedy's Do No Harm Act, which is 
so important to clarify that religious exemption laws 
guaranteeing fundamental civil and legal rights is not a 
license to discriminate.
    I am also here today in support of the Every Child Deserves 
a Family Act so we can put an end to these bigoted restrictions 
once and for all.
    So, I want to thank you, Chairwoman Maloney, for your 
leadership on this issue. I want to thank my colleagues, 
Representative Kennedy and Representative Takano.
    I want to thank my colleague, Mike Kelly, for being here 
today. I know his beliefs are sincerely held. But I believe 
they are profoundly misguided and will create real damage to 
families like mine. But I respect him as a person of faith.
    You know, I would close by saying that LGBTQ people are 
also people of faith. One of the most frustrating 
misunderstandings is the notion that it is--that this is a 
disagreement between people of faith and people without faith.
    It is an act of faith to take care and love for a child, 
and so it is because of our faith, not in spite of it, that we 
oppose these discriminatory measures.
    We will keep fighting these hateful rules down in 
Washington because every child deserves a home.
    Thank you.
    Chairwoman Maloney. Thank you.
    Congressman Takano?

STATEMENT OF MARK TAKANO, A REPRESENTATIVE IN CONGRESS FROM THE 
                      STATE OF CALIFORNIA

    Mr. Takano. Thank you, Chairwoman Maloney, for convening 
this historic hearing, and Acting Ranking Member Jody Hice for 
the opportunity to address the committee.
    I am Congressman Takano, Mark Takano, and I represent 
California's 41st District. I also serve as one of the seven 
co-chairs for the congressional LGBT Equality Caucus.
    The caucus is comprised of 169 members, LGBT people and 
allies who all share one basic value--the belief that everyone 
deserves to be treated with dignity and respect regardless of 
their sexual orientation and gender identity.
    You know, and I do want to address a couple of things that 
the acting ranking member sort of claimed in his opening 
statement. He talked a lot about the ability to express one's 
religious beliefs in the public square, and I have no problem 
with that.
    We have a robust tradition of that in our country and our 
country was founded by people coming from Europe who were 
suppressed and weren't able to do that and were punished.
    But we need to make a distinction between the public square 
and public accommodation and entities that are supported by 
Federal dollars or entities that are given certain kinds of 
dispensations--a tax-free status because of what they are, and 
we have certain expectations that anything favored by the 
government or supported by the government treats all people 
equally.
    So, the public square is different from this idea of public 
accommodation. You know, Alexis de Toqueville, when he was 
traveling around our country in the early 1800's, noting the 
differences between the Old World of Europe and this new 
democracy in America, he was very curious to see how religion 
operated in America.
    And he--as I recall, he noted the corrupting way--the 
corruption that occurred when the state favored religion and 
that the religion itself became corrupt, and he saw the 
possibility of that in America where religions had to compete 
on equal ground for the souls of Americans. That kept religions 
more pure.
    So, I offer that as a kind of way to look at how we regard 
religion in America. The government has to be this neutral 
place, neither favoring or disfavoring any religion, and if any 
taxpayer dollars go to an institution that that institution has 
to treat everyone fairly and cannot discriminate, and cannot 
use religious liberty as the reasoning for why it would 
discriminate.
    Now, as a former teacher, I am particularly attuned do the 
ways in which children are affected by government and policies. 
Because LGBT children are very, very vulnerable. The rates of 
suicide are much higher among this--among young Americans who 
are LGBTQ.
    Now, the gentleman noted the appointment of Richard Grenell 
as evidence that this administration bears no ill will toward 
LGBTQ people.
    Well, I am going to say that the appointment of one gay 
person to an important post does not compensate for the 
systematic discrimination against LGBT people that affect 
millions of people. So, one person is not evidence of a 
benign--of a benign executive. It is actually an insidious 
argument.
    So, let me just sort of outline these policies that have 
been pursued by the Trump administration despite the 
president's claims that he was going to be for LGBTQ people in 
this campaign.
    In the spring of 2019, the Housing and Urban Development 
Department proposed changes. HUD proposed changes to the equal 
access rule which would allow shelters to explicitly 
discriminate against transgender people.
    They want to make it harder for LGBTQ people who suffer 
from high rates of homelessness to put a roof over their heads.
    This is an example of a systematic discrimination against 
LGBTQ people through policy, and the appointment of one person 
who is LGBTQ to an important post does not--does not compensate 
for that.
    Last fall, the Trump administration made legal arguments 
before the Supreme Court that would limit nondiscrimination 
protections for under Title 7, which exists to prevent people 
from being fired for their sexual orientation.
    They want to give employers the power to fire you based 
solely on who you are or who you love. I say religious liberty 
does not extend to firing people based on who they are.
    They give--they have also given taxpayer funds to 
organizations that provide essential social services the power 
to turn away LGBTQ people seeking their services, and the list 
goes on.
    In addition to attacking LGBTQ Americans in their place of 
work and threatening their ability to have a safe place to live 
in, this administration has rolled back protection in schools.
    In 2019, Secretary of Education Betsy DeVos refused to 
confirm whether or not her department supports policies that 
prohibit discrimination on the basis of sexual orientation or 
gender identity.
    But we don't need her to admit this. We know that this is 
happening and that she is failing LGBTQ youth. She did 
acknowledge, however, in her 2017 decision to roll back a key 
Title 9 interpretation that disproportionately affects 
transgender students.
    It is true. It is a shame that the secretary is hell bent 
on rolling back protections for students who need it most. And 
as a former teacher, as I said, this is personal to me. I want 
to ensure that schools are welcoming for all students 
regardless of their gender identity or sexual orientation.
    All Americans and especially children deserve equal 
protection under the law. I also have the honor of serving as 
chairman of the House Committee on Veterans Affairs and have 
witnessed how this president and his administration are 
disrespecting the service of brave Americans who step up to 
serve our country by instituting a trans military ban.
    Banning transgender people from serving is an affront to 
American ideals of fairness and justice and it undermines our 
national security. This administration will go to extremes to 
make discriminatory policies the law of the land in the United 
States.
    But this won't happen on our watch. The Equality Caucus 
will not sit back as the Trump administration continues to 
dismantle crucial nondiscrimination protections to the 
detriment of vulnerable members of the LGBT community.
    We have decades of experience in fighting back against 
these types of homophobic attacks. And while it is 
disheartening to still have to wage these battles in 2020, we 
have no plans to back down.
    We will fight this taxpayer-funded discrimination and 
continue to defend the LGBTQ Americans and, once more, I end 
with this thought.
    The appointment of one single LGBT person to a position of 
importance does not compensate for the systematic assault on 
the dignity of LGBTQ Americans.
    Thank you, and I yield back.
    Chairwoman Maloney. Thank you.
    Representative Kelly?

STATEMENT OF MIKE KELLY, A REPRESENTATIVE IN CONGRESS FROM THE 
                     STATE OF PENNSYLVANIA

    Mr. Kelly. Thank you, Chairwoman Maloney and Ranking Member 
Hice, for holding this meeting today.
    I think that sometime, and I don't know when it will 
happen, that we need to take a look at policy instead of 
politics. I just don't get the idea we always got to go to the 
point where we are attacking each other all the time.
    You know, yesterday was the beginning of Lent, these 40 
days. And the Lord says, ``Return to me with your whole 
heart.'' That is the purpose of these 40 days that we 
practice--a lot of Christians practice--and I saw so many 
people yesterday with ashes on their forehead.
    Now, I don't know whether they were part of the lesbian, 
gay, trisexual, transgender, or queer people community. I don't 
know what they were.
    I know what they believe because they show it, and I think 
today's hearing is one of those things where you start to think 
about what is it that we are trying to do and what is this 
hearing about.
    I would just submit to my friends on both sides of the 
aisle and across the country this is about providing loving 
homes for children who are put in the position that they don't 
have a loving mother and father, and I would suggest that if we 
look at the very beginning of that it all started in the faith-
based community.
    It started with religious people who said, we have to find 
homes for these children. We have to have them grow up in a 
home where they are loved and they are cared for and they are 
nurtured.
    I have met Mr. Maloney's husband and they have done a great 
job raising their kids. I think that is wonderful.
    The part I am here to talk about today is a piece of 
legislation, H.R. 897, the Child Welfare Provider Inclusion 
Act. The Child Welfare Provider Inclusion Act. I want to really 
place the emphasis on inclusion act and not exclusion act.
    The purpose of the legislation is to promote inclusivity 
and diversity among child welfare service providers and 
prohibit government entities from discriminating against a 
child welfare service provider on the basis that that provider 
declines to provide a social service that conflicts with 
sincerely held religious beliefs or moral convictions of the 
provider.
    This is not an act that says anything about anybody else 
who is providing these services. It is not saying to exclude 
them, and I find it interesting that in a situation like this 
where we are sitting today that we have decided that unless you 
believe what I believe you are not entitled to provide loving 
homes for little boys and little girls. Unbelievable. 
Unbelievable.
    Mr. Maloney talked about discrimination. I was, like, 
discrimination does not go one way. It seems to go both ways. 
If you do not believe what I believe, then you are 
discriminating against me. So, on the other side of that issue 
say, well, wait a minute. That is not what discrimination 
means. It means that we are open to all that.
    This bill, H.R. 897, excludes no one, no entity, no 
service, no agency from having access to Federal funds, not to 
take care of a political issue but to take care of homeless 
children that are looking for a loving home.
    If we are going to continue to tear apart what this country 
is based on all because it doesn't fall within our agenda that 
day, then how far have we fallen as a country, and, more 
importantly, as a Nation.
    I have sat here for nine years. This bill has been out 
there. All you need to do is get sponsors that say, you know 
what, we are with you. History tells us that this all began in 
the faith-based community. They have deeply held religious 
beliefs.
    The LGBTQ community has deeply held beliefs. We do not 
discriminate against their beliefs and we say if that is what 
you choose that is fine. All we ask is that you don't 
discriminate against the faith-based community because they 
don't hold those same beliefs.
    In America we are going to decide who is morally right, who 
is wrong. It makes absolutely no sense that we are even having 
these debates and we are saying that unless you believe as we 
believe you are not entitled to any funding, and what we are 
forgetting about as we are going through this with this opioid 
situation, how many children--how many children are waiting to 
go into a loving home?
    Are we really going to tell them, these agencies that 
provide foster care and adoptive care, you know what, you are 
not thinking the right way?
    Well, I will tell you, I think they are thinking the right 
way and I think they are thinking with their hearts and I think 
they are thinking that it is more important to take care of 
children who need a loving home than to have a debate.
    I have absolutely no problem with the LGBTQ community and 
what they believe that is fine. All I ask is don't discriminate 
against somebody else who doesn't hold those same beliefs and 
that believe something different.
    If the issue is children, and it should be children--if the 
issue is providing loving homes, and it should be about 
providing loving homes--why would you tell the faith-based 
community you are not entitled to do that anymore, even though 
you started it and you are the ones that have provided it for 
so many years?
    We are now going to tell you, because you don't believe as 
we believe, you could do it. There is nothing in H.R. 897 that 
would ever take away anything from other agencies that think 
differently.
    And if we really are American, if we really do believe that 
everybody has a voice and we really do believe that all are 
welcome and we really do believe that our mission is to do the 
right thing for the right reasons, then I would just suggest it 
is time to really take a good strong look at where we are today 
and those things that divide us are so much farther away than 
what this country was founded on.
    We need to stop having this type of divisive talk and talk 
about inclusive talk. And I get where my friends are coming 
from and I would just say there is not one thing in H.R. 897 
that would divide--that would take any funding away from other 
agencies that believe differently than what the religious and 
the faith-based community believe.
    So, I thank you so much for inviting me here today. I would 
ask all my--all my friends on both sides of the aisle to please 
take a look at H.R. 897 and let us really concentrate on what 
we need to concentrate on, and that is the children.
    If this is about children, let us make it about children. 
Let us not make it some type of political divide instead of a 
strong policy that takes care of children that are so in need 
of loving homes.
    I thank you for having me and I yield back.
    Chairwoman Maloney. Thank you very much.
    Congressman Kennedy?

 STATEMENT OF JOSEPH P. KENNEDY, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. Kennedy. Madam Chair, thank you. I want to thank 
Subcommittee Chairman Raskin and the ranking member for 
convening this extremely important hearing today and for your 
tireless efforts to expose this administration's dangerous 
assault on LGBTQ Americans.
    I want to acknowledge the testimony that we heard so far 
today from Mr. Kelly to my right, a man of deep faith--I think 
somebody who genuinely believes in the best for our country and 
his constituents.
    I want to recognize Mr. Takano and Mr. Maloney's testimony 
and how grateful I am that they serve the country the way that 
they do.
    I am going to give a little bit of history here and then 
clarify a couple points for the record.
    In 1993, Madam Chair, Congress passed the Religious Freedom 
Restoration Act with overwhelmingly bipartisan support in 
response to Employment Division v. Smith which saw two Native 
Americans fired from their jobs and denied unemployment after 
they consumed a drug outside of work as part of their religious 
faith.
    The intent of that law was simple--that Americans have a 
right to practice their faith freely and fully, that Native 
Americans had a human and legal right to practice their 
religion as they wished, that no Jewish child should be told 
they cannot wear a yarmulke to school, that no Sikh worshipper 
can be forced to reject the tenets of their faith to protect 
their communities or serve in our military.
    But the enforcement of RFRA has morphed into something far 
more dangerous, something that threatens the freedom of 
religion for each and every one of us. Because instead of 
shielding vulnerable Americans from persecution, this has now 
become a sword used to marginalize vulnerable communities.
    In our Nation's history, few have wielded that sword more 
violently, more painfully than this president and this 
administration, most recently with nine proposed rules to open 
up our society to increased hate and violence.
    Let us be very clear about who has been left in that 
hateful wake. Students bullied by peers, faculty, and school 
leadership with nowhere else to turn. Pregnant teachers forced 
out of lifelong careers.
    Patients forced to suffer because of someone else's 
religious belief. Workers fired or forced onto an unemployment 
line for living their own lives. Homeless Americans denied 
shelter because this administration does not believe that they 
are worthy of housing.
    Children denied loving families. Prisoners denied human 
rights and basic dignity. Migrants and asylum seekers literally 
denied life.
    And unlike the claims of members of this administration's 
Cabinet, these are not people seeking, quotes, ``extra 
rights.''
    These are Americans asking and begging to be treated the 
same as the next student at the desk, the next loving parents 
looking to adopt a child, the next employee to put on a uniform 
and the next person seeking asylum or shelter. That is what the 
Do No Harm Act is about that I worked on and filed with Bobby 
Scott.
    It is a bill intended to restore RFRA to its original 
purpose and to clarify that no one can claim religious 
exemption from laws that protect against basic discrimination, 
government wages and collective bargaining, prevent child labor 
and abuse, provide access to health care, regulate public 
accommodations or provide social services through government 
contracts.
    A bill to reestablish a lesson that Americans have learned 
painfully for generations that if civil and legal rights exist 
only in the absence of a neighbor's religious objection, then 
they are not civil rights but empty promises. The ability to 
freely and fully exercise sincerely held religious beliefs in 
this country is a liberty each of us cherishes.
    Across the Nation, religious principle inspires countless 
families, organizations, and communities to champion economic 
justice, human dignity, and common decency.
    But there is a difference between exercising religious 
beliefs and imposing them on others. Our Constitution fiercely 
protects the former and expressly prohibits the latter.
    If this administration cannot see the harm that they are 
causing not just to LGBTQ Americans and vulnerable communities 
but to religious liberty itself, then Congress must act quickly 
and powerfully to open their eyes.
    Transgender Americans deserve better. LGBTQ Americans 
deserve better. Every single American deserves better.
    And let us get to the crux, if I may, briefly, about what 
we have heard today. This comes down to two big pieces. One, a 
complete juxtaposition and a redefinition of who is a victim.
    We have learned across our society that the denial of 
services based on the central tenet of who the recipient of 
those services are constitutes discrimination.
    This idea, the formulation that you have heard from our 
colleagues, fundamentally flips that to say that the restaurant 
owner is being discriminated against, not the person denied 
services.
    It flips civil rights history on its head. That is the 
jujitsu that this Supreme Court and that a Republican majority 
seeks to sell on the American public today. A redefinition of 
who, in fact, is a victim.
    And two, this is about state-sanctioned discrimination and 
state-sanctioned dollars. As Chairman Raskin pointed out, 
churches are free to do what they want with their own private 
dollars, their own philanthropy.
    But when it comes to your taxpayer dollars, my dollars, 
being used to tell somebody like Mr. Maloney that he is not a 
good enough parent because of who he is, then yes, I believe 
our government should say no because we believe in the ability 
of parents to be parents and children to deserve a home, and 
that is what this is about. Nothing more and nothing less.
    And, last, let me just end on this. One of the proudest 
moments of my congressional career was marching in the gay 
pride parade in Boston, Massachusetts, in 2013. Tens of 
thousands of people lined the streets of Boston.
    As I walked down that street with my predecessor, Barney 
Frank, a former Congressman, one of the first people to come 
out as gay in service to his country, and Jewish, and my former 
college roommate, a seven-foot-tall African-American 
professional basketball player who was the first person in a 
major professional sport to come out as gay--a gay Jewish 
former Congressman, a pasty-white red-haired Irish Catholic, 
and a seven-foot-tall African-American professional basketball 
player walking down the streets of Boston with thousands of 
people cheering them on--our Founders may have been brilliant 
but they never thought that that was going to happen.
    Our society has progressed to recognize the basic dignity 
of every single soul. That is what today is about.
    I yield back.
    Chairwoman Maloney. I thank my colleagues for their 
testimony before us today. Thank you very, very much.
    Our next panel should come forward. Thank you.
    [Pause.]
    Chairwoman Maloney. I now would like to welcome our second 
panel of witnesses and our first speaker will be Ernesto 
Olivares.
    Mr. Olivares entered the foster care system at 13 years 
old. He is currently a member of the Every Child Deserves a 
Family Campaign.
    Second, we have Evan Minton. Mr. Minton is a public servant 
who was denied medical care for a gender transition-related 
hysterectomy at a religious hospital system. He is also a 
national advocate for LGBTQ rights.
    Third, we have Sarah Warbelow. She is the legal director of 
the Human Rights Campaign. She is also an affiliated professor 
at George Washington University in George Mason Law School.
    Fourth, we have Hiram Sasser. Mr. Sasser is the executive 
general counsel of the First Liberty Institute.
    And last, we have Reverend Sloan from New York. Thank you 
for being here. Reverend Sloan is the chief executive officer 
of the Family Equality and a trustee for the Union Theological 
Seminary. He has been an ordained Episcopal priest since 1991.
    I would like to begin by swearing in the witnesses. If you 
would all please rise and raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Witnesses are sworn.]
    Chairwoman Maloney. Let the record show that the witnesses 
answered in the affirmative. Thank you, and please be seated.
    The microphones are sensitive. So, please speak directly 
into them. Without objection, your written testimony will be 
part of the record.
    With that, Mr. Olivares, you are now recognized to provide 
your testimony, and we will go right down the list.
    Thank you all for coming.

       STATEMENT OF ERNESTO OLIVARES, SAN ANTONIO, TEXAS

    Mr. Olivares. Chairwoman Maloney, Congressman Hice, 
Chairman Raskin, and Ranking Member Roy, thank you for 
permitting me to testify today on a topic of great personal 
importance to me.
    My name is Ernesto Olivares. I am from San Antonio, Texas. 
I spent five years in the Texas foster care system. I was only 
13 years old when I went into the system. I was still trying to 
figure out who I was as a young man.
    My brother and I were placed in a shelter 180 miles away 
from my home city of San Antonio. I hated it. The staff was 
rude and the other boys were mean. Youth and staff at my 
shelter used derogatory language. Words like "faggot" and 
"homo" made me feel uncomfortable, alone, and out of place.
    After leaving, I ended up at my only other placement, a 
group foster home, with 11 other boys for the next five years. 
The foster care agency that I was placed through was a 
Christian agency. I believe my foster parents were good people 
with good intentions. They attended a Christian church. I am 
religious but I am not a Christian. At first I went with them 
to the Christian church out of curiosity.
    But as I got older it became awkward and hurtful to hear 
that I would go to hell for being gay and that I wasn't normal. 
But if I didn't go, I might be made fun of or seen as weird and 
different. I was worried the other kids would think there was 
something wrong with me or suspect I was gay. So, I never came 
out.
    Even though most people probably knew I was gay, when I saw 
people get bullied it struck fear into me to be different. I 
wasn't wrong to fear coming out. LGBTQ+ and two-spirit youth 
are over twice as likely to report being treated poorly by the 
foster care system compared to non-LGBTQ youth.
    The thing that scared me the most is that I heard rumors 
that gay kids got sent to a special home, 24-hour surveillance 
with other youth who really had mental issues and special 
needs.
    If I came out and one of the other boys in the home didn't 
like it, would I be sent there? What about my brother? Would I 
lose being with him, too?
    My sisters and I went to the same high school. Would I not 
see them again until I was 18? There was too much to lose. My 
brother and sisters mean the world to me and the thought of 
being separated from them killed me inside. I would do anything 
to keep those relationships close and safe to me. It is 
unethical and outrageous to separate any siblings for 
identifying as LGBTQ.
    I remember one day we were getting ready to go on a family 
vacation and I went to grab my bag, the big bright blue one 
they give you to put all your things in when it is time to move 
placements.
    Someone had scratched out my name and written "faggot" in 
its place. I cried and I kept it to myself until we got back 
from vacation. Eventually I did tell my therapist what 
happened. I had asked her not to bring my foster parents into 
the room and she decided to bring them in anyway.
    Even though I showed them the tag as proof, they denied 
that anyone in the house would ever do that. So, nothing was 
ever done about that incident. I wonder if the agency serving 
me had been required to protect me from discrimination 
regardless of religion, mine or the agency's. Whether they 
would have been more proactive about preventing anti-gay 
bullying targeting me.
    It is not surprising to me that LGBTQ foster youth are more 
likely to become homeless. Many LGBTQ foster youth receive such 
poor treatment in foster care that they choose homelessness 
over foster care.
    South Texas isn't known for accepting kids or adults like 
me. The agency I was with wasn't either. I never met an LGBTQ 
foster parent or adoptive parent while I was in care. I only 
wish that I could have--I wish I could have those opportunities 
to live and be who I was.
    The challenges I face should not be a part of a youth's 
experience in the child welfare system. That is why one day I 
want to be a foster dad, open up my home, heart, so that kids 
like me--for kids like me.
    However, the discrimination that is happening in my state 
and other states around the country I worry that I will be 
turned away simply because I am gay. That is wrong. No foster 
child should be denied a loving family when a qualified person 
is willing to provide them a home.
    That is why I do support the bipartisan Every Child 
Deserves a Family Act, H.R. 3114, which would end 
discrimination based on religion, sexual orientation, and 
gender identity.
    This bipartisan bill, introduced by Chairman John Lewis, 
which currently has 180 co-sponsors, would also provide states 
like Texas with resources to provide better services for LGBTQ 
foster youth so that children in care now wouldn't have to go 
through the same hard times I did.
    I urge the committee to support passage of H.R. 3114 and 
require the U.S. Department and Health and Human Services to 
end discrimination in foster care programs and to provide 
affirming services to every LGBTQ child in foster care 
regardless of religion of the agency serving that child.
    Thank you.
    Chairwoman Maloney. Our next speaker is Evan Minton.

        STATEMENT OF EVAN MINTON, LIVERMORE, CALIFORNIA

    Mr. Minton. Thank you, Congressman Maloney, Congressman 
Hice, and members of the committee. I am honored to be here 
today.
    In August 2016, I was in the process of undergoing a series 
of medical treatments stemming from my diagnosis of gender 
dysphoria. After my doctors determined that a hysterectomy was 
medically necessary, I was scheduled to undergo the surgery at 
Mercy San Juan Medical Center, a hospital in the Dignity Health 
chain near Sacramento, California, where I live.
    I did not know much about Mercy San Juan Medical Center or 
Dignity Health. But I did know that my doctor regularly 
performs hysterectomies at that hospital. Two days before the 
surgery date a nurse called me to go over the details and I 
mentioned that I was transgender.
    The very next day, a day before my surgery, the hospital 
called my surgeon to inform her that my surgery had been 
canceled. The reason? Because of my gender transition.
    When I heard the news I remember being so devastated that I 
collapsed to the ground. I felt distraught and helpless that 
the hospital was refusing to treat me simply because of who I 
am.
    To make matters worse, the fact that surgery was canceled 
then put all of the other medical procedures that I had 
scheduled in flux. Because I had already experienced delays in 
getting the care that I needed, the timing of this surgery was 
particularly important.
    I was fortunate in the fact that I was able to undergo a 
hysterectomy at a different hospital. But the experience leaves 
scars.
    I had no idea prior to seeking a hysterectomy that my local 
community hospital was a Catholic hospital or that they would 
argue that religious doctrine permits them to deny medically 
necessary care just because the patients happen to be 
transgender. It should never ever be okay to deny transgender 
people or anybody care just because of who they are.
    In 2017, the ACLU and the law firm Covington and Burling 
LLP filed a lawsuit against Dignity Health on my behalf. 
California law prohibits businesses that are open to the 
general public, including hospitals, from discriminating on the 
basis of gender identity.
    Just last fall, a California Court of Appeal agreed with 
me, that I suffered discrimination when the hospital canceled 
my surgery. While my case has been pending in the courts, the 
Trump administration weighed in.
    In January 2018, less than a year after I filed my case, 
the U.S. Department of Health and Human Services issued a 
proposed rule titled ``Protecting Statutory Conscience Rights 
in Health Care.''
    As opposed to working to protect patients and expand access 
to health care, the entire purpose of the refusal of care rule 
is to support religious people and entities in limiting the 
care they provide to patients.
    In the rule, three court cases were mentioned as a reason 
why the rule was necessary. Mine was one of them. The fact that 
the Trump administration singled me out--my name is now in the 
Federal Register--truly knocked me down for almost a year.
    When I try to explain this to people, some folks feel that 
I should--feel that this is badge of honor or that I am doing 
something right if the Trump administration is coming after me 
personally.
    I don't feel this way. I have felt like it is a heavy 
burden to carry, that it is emotionally draining, and that it 
is pressure filled and it is completely overwhelming, and I 
still feel this way today, two years later.
    The Trump administration's refusal of care rule labels me 
as a threat. Their rule legitimizes what happened to me and 
encourages other hospitals to do the same.
    According to the Trump administration, I am not deserving 
of health care. According to the Trump administration, my life 
and the life of every single transgender American is disposable 
and just doesn't matter.
    So, by inviting me here today, I am so grateful that I get 
to be more than just a name on a harmful, harmful document. I 
feel like I can finally reclaim my voice and attempt to take 
back my power, and I am so grateful for that.
    Thank you very much for allowing me to be here today and I 
am happy to answer any questions that you may have.
    Chairwoman Maloney. Thank you so much for your testimony.
    Ms. Warbelow?

   STATEMENT OF SARAH WARBELOW, LEGAL DIRECTOR, HUMAN RIGHTS 
                            CAMPAIGN

    Ms. Warbelow. Chair Maloney, Congressman Hice, and members 
of the committee, thank you for having me here today.
    My name is Sarah Warbelow. I am the legal director for the 
Human Rights Campaign, America's largest organization working 
to achieve full equality for lesbian, gay, bisexual, and 
transgender people.
    It is an honor and a privilege to submit this testimony on 
behalf of our more than 3 million members and supporters 
nationwide. I am here today before you not only as a legal 
expert but also as a bisexual woman who is the proud parent of 
a transgender girl.
    The right to believe and to worship or not are core 
American values. These constitutionally protected rights have 
shaped our Nation and have cultivated the Founders' dream of a 
pluralistic and free society.
    We are also a nation built on the values of equality, 
access to opportunity, inherent individual dignity, and a 
belief that each one of us must be allowed to shape our future 
free from the limiting stranglehold of bias.
    Since taking office, the Trump administration has 
consistently attacked our communities most vulnerable, 
employing a public policy strategy designed to divide and 
otherize, encouraging individuals and communities to see each 
other as enemies rather than neighbors.
    Despite these dangerous efforts to create a narrative of 
opposition, faith and civil rights communities are intertwined 
and continue to recognize our shared values and shared future.
    Under Trump's leadership, Federal agencies have engaged in 
a dangerous effort to redesign the evidence-based approaches to 
our Nation's administrative infrastructure. In the absence of 
legal or empirical support for these changes, agencies have 
instead relied on an oftentimes dramatically myopic and 
disingenuous legal interpretation.
    The Trump administration's regulatory agenda regarding 
religious exemptions has been predicated on a misrepresentation 
of three recent court decisions from the Supreme Court: 
Masterpiece Cake Shop, Trinity Lutheran, and Hobby Lobby.
    Numerous Federal agencies, from HHS to HUD to DOL, have 
cited these cases as mandates to incorporate expansive 
religious exemptions into the Federal Register.
    They mischaracterize these decisions by ignoring the 
limiting language of the holdings and instead suggesting that 
they require the Federal Government to grant expansive 
exemptions to Federal contractors and grantees.
    The Department of Labor engaged in this acrobatic legal 
analysis to support its revisions to the implementing 
regulations for Executive Order 11246, severely undermining the 
original mission of the executive order by stripping workers of 
basic protections and empowering federally funded businesses 
and organizations to discriminate against their employees with 
few safeguards.
    The thrust of these administrative actions has been to 
empower businesses and organizations to engage in 
discrimination without consideration for the impact on 
beneficiaries or workers.
    Every year the Federal Government implements hundreds of 
social safety net programs designed to support and empower our 
Nation's most vulnerable communities.
    The Federal Government accomplishes many of these programs 
through valuable partnerships with nonprofit organizations 
nationwide. The new Trump regulations not only turn a blind eye 
toward discrimination in social service programs but have 
empowered and encouraged it.
    Looking to HHS as an example, we have seen this department 
erode patient and beneficiary protections since day one. This 
has been accomplished through numerous regulations including 
revisions to the department's charitable choice and grant 
requirement regulations and those implementing Section 1557 of 
the Affordable Care Act and statutory conscience amendments.
    These changes undercut explicit beneficiary protections, 
empower discrimination and denial of service to our community 
and all HHS programs. Programs like homeless emergency 
services, child welfare programs, and substance abuse and 
mental health treatment.
    In some of these cases these changes attempt to codify 
overly broad interpretations of RFRA. HUD has taken similar 
regulatory steps. The language provided by HUD to OMB proposing 
to revise the equal access rule would empower providers to 
consider a range of factors in making housing determinations 
including religious beliefs.
    As drafted, the HUD proposal would empower religious 
organizations operating HUD-funded programs including emergency 
and homeless shelters to turn away transgender people because 
of gender identity or refuse to provide family services and 
housing to a same-sex couple because of its views on marriage.
    Similarly, the regulations adopted by HHS undermine the 
rights of young people struggling with homelessness and housing 
insecurity.
    Relying on flawed and unsupported legal reasoning, the 
White House has time and time again prioritized the rights of 
bigoted organizations to discriminate against people who rely 
on the government for support and protection.
    Chairwoman Maloney. Thank you so much.
    Mr. Sasser?

  STATEMENT OF HIRAM SASSER, EXECUTIVE GENERAL COUNSEL, FIRST 
                       LIBERTY INSTITUTE

    Mr. Sasser. Chairwoman Maloney, Congressman Hice, and 
members of the committee, thank you for the opportunity to 
share my perspective on some important issues.
    My firm represents people of all faiths, from Native 
American Sweat Lodge to the Falun Gong, and when the government 
tried to ban a development of an Islamic cemetery we fought and 
won for the Muslim community.
    As President Clinton stated on November 16th, 1993, as he 
signed the Religious Freedom Restoration Act, ``Our Founders 
cared a lot about religion and one of the reasons they worked 
so hard to get the First Amendment into the Bill of Rights at 
the head of the class is that they well understood what could 
happen to this country, how both religion and government could 
be perverted if there were not some space created and some 
protection provided.''
    We live in a pluralistic society with millions of Americans 
sharing different views about family, faith, and conscience. In 
such a multicultural society we must pursue tolerance and 
mutual respect.
    We can do this effectively without resorting to a zero sum 
game of political power. Cooperation for mutual benefit is the 
goal. Coexistence with people of differing beliefs and 
backgrounds is the ideal.
    We must, as President Clinton urged us, explore how the 
First Amendment provides this space and protection we need for 
religious liberty to flourish in a pluralistic society.
    In United States v. Seeger in 1965, the Supreme Court had 
to interpret what Congress meant about the belief in a supreme 
being when Congress exempted conscientious objectors from 
compulsory military service.
    Taking a step back, it is quite remarkable that the state 
interest at stake is the very preservation of the state itself. 
But conscientious objectors have always received some form of 
protection since the Revolutionary War.
    Yet, we as a Nation, through our elected representatives in 
Congress, decided to exempt such objectors from compulsory 
service even though doing so increased the possibility of 
another one among us bearing the burden, even the ultimate 
burden.
    The Supreme Court in Seeger gave the fullest effect of that 
language, noting, quote, ``It must be remembered that in 
resolving these exemption problems one deals with the belief of 
different individuals who will articulate them in a multitude 
of ways.
    The validity of what he believes cannot be questioned. 
Local boards and courts are not free to reject beliefs because 
they consider them incomprehensible.''
    Developments in the law of religious liberty bear mention 
and should serve as a guide for understanding the current 
administration's position regarding religious liberty 
protections.
    As Justice Brennan stated, ``Concern for the autonomy of 
religious organizations demands that we avoid the entanglement 
and the chill on religious expression that a case by case 
determination would produce.''
    As he further said in Corporation of Presiding Bishop v. 
Amos, ``I believe that a categorical exemption for such 
enterprises is appropriately balanced with these competing 
concerns.''
    Religious accommodation and exemption laws in the 
constitutional underpinnings have a long history in our country 
and a fully developed body of law. The Religious Freedom 
Restoration Act is an excellent example of a broad religious 
accommodation and an exemption in that it applies to all 
Federal law.
    While RFRA is broad in its application, it does not 
guarantee any particular outcome. It only ensures that people 
whose religious beliefs have been burdened get their day in 
court.
    RFRA asks whether the rule or regulation is a substantial 
burden on religious activity of the person seeking an exemption 
from an otherwise neutral and generally applicable rule.
    If the court determines that the person seeking the 
exemption demonstrates that the rule or regulation causes a 
substantial burden on his or her religious exercise, the burden 
of proof switches to the government.
    Protecting minority faith positions is the key to liberty 
for us all because we never know when we will be in the 
minority faith position. This is why we sued for the Muslim 
community when all they wanted was a plot of land on which to 
bury their loved ones.
    Indeed, there are circumstances when members of the Muslim 
faith, for example, must refrain from participating in 
something that conflicts with their faith that may be a very 
important part of someone else's life.
    The question arises as to which branch of government should 
be the guardians of religious liberty. From conscientious 
objectors to the Religious Freedom Restoration Act, Congress 
has been the guardian of religious liberty.
    Thus, the executive branch should defer to Congress and 
that role is what the current administration appears to 
embrace. Many of the administration's newer proposed 
regulations hew very closely to the relevant underlying 
statutes as set forth by Congress.
    In fact, much opposition to this administration's 
regulatory changes comes from the administration's refusal to 
deviate from its statutory authority, even when past 
administrations were willing to reinterpret Congress's 
decisions.
    The First Amendment remains a meaningful guardian should 
government stray from its constitutional obligations. As the 
Supreme Court said in West Virginia v. Barnette, if there is 
any fixed star in our constitutional constellation it is that 
no official, high or petty, can prescribe what shall be 
orthodox in politics, nationalism, religion, or other matters 
of opinion, or force citizens to confess by word or act their 
faith therein.
    Thank you
    Chairwoman Maloney. Thank you.
    Reverend Sloan?

  STATEMENT OF STAN J. SLOAN, CHIEF EXECUTIVE OFFICER, FAMILY 
                        EQUALITY COUNCIL

    Reverend Sloan. Good morning, Chairwoman Maloney, 
Congressman Hice, and Chairman Raskin. Thank you for allowing 
me to be there today.
    I am Father Stan Sloan. I am an Episcopal priest, a trustee 
for Union Theological Seminary in New York City and the CEO of 
Family Equality. We are the national organization for LGBT 
people with children and for LGBTQ people who want to form 
families.
    I started my journey in the nonprofit sector by working for 
decades with the homeless in Chicago, the first part of that in 
Christian Service for Episcopal Charities and the last 16 years 
focused on the disproportionately large population of LGBTQ 
homeless people as the CEO of Chicago House.
    Genesis 1:27 states that God created humanity in God's own 
image. Unfortunately, humanity has been returning that favor 
ever since, distorting God into whatever image many people may 
choose to form of God in order to justify their own comfortable 
lives or their own discriminatory practices. This distortion is 
at the very heart of our hearing today.
    Decades of working with the homeless taught me what six 
years of theological study could not. The Christian Gospels 
have a preferential option for the poor and for the 
marginalized. More, Christ as seen in the Gospel narratives 
prefers to spend his time and share his life with those same 
people, the poor and the marginalized.
    With the metaphor of overturning tables and of cleansing 
the temple for those who instead choose to distort religion for 
their own means, many of us are here today to begin overturning 
tables and to begin cleansing our Nation of distorted ideas of 
religion that have no place in the separation of church and 
state. Render unto Caesar that which is Caesar's and render 
unto God that which is God's.
    There are currently over 440,000 children in our child 
welfare system. Over a quarter of those children are able to be 
adopted at this moment and, yet, 20,000 of those kids will 
graduate out of the system this year alone without finding 
parents.
    Last year, Family Equality made the front page of USA Today 
with our research showing that 63 percent of LGBTQ Millennials 
plan on forming families. That is a huge increase in the 
decades ahead.
    If you are LGBTQ in America you are seven times more likely 
to foster parent and you are seven times more likely to adopt a 
child than if you are straight. And yet, 11 states now have 
laws that allow for legal discrimination against LGBTQ people 
in foster care and adoption.
    These laws have been put in place under guise of religion 
and under the name of religious liberty. Congressman John 
Lewis's Every Child Deserves a Family congressional act, H.R. 
3114, will overturn those bad laws nationwide and those who 
care about children will support that act.
    There are those who will tell you that people who are 
denied a wedding cake at one bake shop can simply go to another 
bake shop, and for my husband and I that is, largely, true.
    One of the advantages of being middle or upper class is the 
mobility that it affords. My decades of working with the 
homeless in Chicago taught me that mobility is not a luxury 
that is afforded to those living in poverty.
    Being denied proper medical care as a trans person at the 
nearest clinic too often means being denied medical care 
entirely. Similarly, for those in LGBTQ and isolated by poverty 
or geography, being told no when seeking basic human needs such 
as food or shelter could be mean being told no to survival 
itself.
    The abuse of Christian scripture and principles to justify 
prejudice is nothing new. The Book of Philemon was used by 
Christians to justify slavery during the Civil War and again to 
justify discrimination in the 1960's.
    It is my belief that those supporting religious liberty 
have chosen religion as a parallel war of discrimination today. 
Yet, any objective reading of scripture shows Christ himself as 
a man shunning zealots and embracing the marginalized.
    If, instead, we are respectful of church and state and if 
we move this battlefield of discrimination from religion to our 
judicial, legislative, and executive systems, it becomes 
readily apparent that discrimination based on religion cannot 
stand if we are true to our valued principles.
    Regardless of the battlefield, it is time that we as a 
country begin overturning tables and cleansing our Nation. For 
me, as a middle class American, this protection of civil rights 
is important.
    But for those that are poor and most marginalized, it is 
not only important but necessary for life itself.
    Thank you for allowing me to be here today.
    Chairwoman Maloney. Thank you so much for your testimony 
and all the panelists for your testimony. I recognize myself 
for questions.
    Title 9 of the Civil Rights Act of 1964 protects students 
at publicly funded schools from discrimination based on sex. 
The scope of Title 9's protections has been a primary target of 
the Trump administration as it has rolled back protections for 
the LGBTQ community.
    In 2019, nearly one in three LGBTQ students were physically 
harassed. They were physically harassed based on their sexual 
orientation while one in four were physically harassed based on 
their gender identity.
    Reverend Sloan, you have extensive experience working with 
LGBTQ youth. In your opinion, what message does the rollback of 
Title 9 protections send to transgender students and other 
LGBTQ students who face discrimination based on their gender 
identities or sexual orientation?
    Reverend Sloan. So, when our kids--when LGBTQ people are 
faced with this discrimination, it does emotional and lasting 
harm to them.
    You know, even if they are able to, you know, as Mr. Minton 
did, find another place to receive the services or the benefits 
that they need, the mere rejection is a micro aggression that 
scars us and that is very hard to heal from.
    Chairwoman Maloney. Thank you.
    Ms. Warbelow, President Trump's own Secretary of Education, 
Betsy DeVos, initially resisted rolling back these Title 9 
protections, stating that she was uncomfortable because of the 
potential harm that rescinding them could cause to transgender 
students.
    Was Secretary DeVos right in her initial assessment 
regarding the impact of rescinding these protections, Ms. 
Warbelow?
    Ms. Warbelow. Rescinding the guidelines to schools about 
their obligations to transgender students created a vacuum 
which encouraged schools to either engage in discrimination or, 
for most well-meaning administrators, created a lack of 
understanding of how they should move forward.
    They were frightened to protect transgender students 
despite the fact that they have an obligation not only under 
Title 9 but under the equal protection clause as well.
    It is dangerous for students not to have the full 
protection of the government. Terrifyingly, the Department of 
Education is also failing to investigate claims of 
discrimination against LGBTQ students, particular transgender 
students.
    Chairwoman Maloney. Well, can you give us some examples of 
some of the harms you have actually seen from the repeal of 
these protections?
    Ms. Warbelow. Transgender students are expected to use 
restrooms that are not consistent with their gender identity. 
Students have been forced to use restrooms that are all the way 
across the campus from where their peers are using restrooms, 
singling them out for discriminatory behavior.
    Teachers refuse to intervene when trans students are being 
harassed by their peers and their classmates. And there are 
teachers who are disrespectful enough to refuse to call trans 
students by their names and appropriate pronouns.
    Chairwoman Maloney. In 2018, the Department of Education 
issued a troubling proposed rule that would undermine equal 
access to education for LGBTQ sexual assault survivors under 
Title 9.
    The rule would make it harder for survivors of sexual 
assault and harassment who disproportionately identify as LGBTQ 
to address their claims.
    How would rolling back these protections harm LGBTQ youth, 
Ms. Warbelow?
    Ms. Warbelow. Nearly 40--excuse me, nearly half of bisexual 
women have experienced sexual assault, as have nearly half of 
transgender people in their lifetime.
    The Title 9 rule on sexual assault makes schools more 
dangerous for all, especially LGBTQ students. There are many 
provisions of the rule that would harm students.
    But there are some that are particularly dangerous for 
LGBTQ students.
    First, allowing religious institutions to discriminate 
against LGBT students without warning places them in a 
situation where they are unaware of whether or not their 
schools support them if they experience sexual assault or 
violence.
    The narrow definition of harassment from unwelcome conduct 
of a sexual nature to only incidents that are so severe and 
pervasive to be objectively offensive--effective denies all 
students equal access to education.
    Chairwoman Maloney. Well, earlier this month I led ever 
committee Democrat in sending a letter to Secretary DeVos 
asking for documents related to this proposal and who was 
behind it.
    So far, we have not gotten the documents we asked for. But 
we will continue our oversight of Title 9, this rule, and 
Secretary DeVos' troubling record at the Department of 
Education.
    Every young person deserves the right to an educational 
environment in which they are respected and protected. Instead, 
the actions of this administration have created an environment 
where LGBTQ youth are made to feel unprotected, unsupported, 
and unseen.
    I would now recognize----
    Mr. Massie. Madam Chairwoman?
    Chairwoman Maloney. I will now recognize the gentlewoman 
from West Virginia.
    Mr. Massie. Madam Chairwoman, I would like to enter 
something into the record.
    Chairwoman Maloney. Without objection.
    Mr. Massie. So, I would like to enter into the record, 
among many others to come, a letter from His Excellency, George 
Murray Bishop of Youngstown, and chairman of the U.S. 
Conference of Catholic Bishops, Committee for Religious 
Liberty, expressing his disappointment with the framing of this 
hearing, specifically its title, asserting that religious 
liberty is an assault.
    And while we may disagree on specific applications of 
religious liberty claims or the impact of these regulations, in 
particular, I would like to enter this letter as well as others 
from other organizations.
    Chairwoman Maloney. Without objection, so ordered.
    Mr. Massie. Without----
    Chairwoman Maloney. And I now--you may submit it.
    Mr. Massie. OK. Thank you, Madam Chairwoman.
    Chairwoman Maloney. I now recognize Mrs. Miller from West 
Virginian, and she will be followed by Jamie Raskin, and I am 
asking Jamie to now chair this committee. I have been called to 
a markup in another committee.
    I thank everyone for being here on this important issue.
    Mrs. Miller. Thank you, Chairwoman Maloney, and thank you 
all for being here today to discuss this important topic.
    I do want to say from the beginning that I am commending 
the Trump administration's strong commitment for advancing 
rights for all people and, particularly, the commitment to 
eradicating AIDS epidemic worldwide, and I am encouraged by the 
work that the administration is doing to treat all people with 
dignity and respect that they deserve.
    I think it is very important that we understand that. 
Freedom of religion is one of the foundational tenets of our 
country. Additionally, liberty and freedom from a burdensome 
government is a right afforded to every American.
    I believe in equality for everyone in the eye of law and 
this discussion is an opportunity to find the balance that we 
strive to work toward.
    There are many views surrounding the topic of equality and 
religious freedom today and I hope that we can all have a 
productive discussion that will ensure the rights for all 
people and that all people are protected.
    Mr. Sasser, do you believe that the regulations proposed by 
the Trump administration seek to maximize individual liberty?
    Mr. Sasser. I think that the Trump administration is trying 
to focus on its duty as the executive branch to conform its 
regulations to Congress's decisions that they have made through 
legislation.
    Many of the regulatory changes that have been proposed or 
enacted were simply to try to bring the language back into 
conformance with statutes that this body had already previously 
passed.
    I will give you an example, since Title 9 was raised. There 
was an issue in the previous administration with religious 
schools having to seek exemptions and having difficulty 
receiving their exemptions from Title 9 because Congress said 
that religious schools shall be exempt.
    As a matter of fact, Congress was very specific it was 
granting an exemption without having to go through all the 
jumps and hoops and everything else that the previous 
administration had enacted.
    I think what this administration is trying to do is to 
conform its definitions and conform its regulations to the 
statutes that this body has passed. Congress, Article 1 branch 
of government, is the guardian of liberty. These are the 
representatives of the people of the United States from all 
parts of the United States and all different types of 
backgrounds.
    Obviously, there is going to be a difference between 
Waxahachie, Texas, and New York City. This is the place where 
those negotiations take place and that language is crafted.
    It is not perfect. It is not what everybody wants. Somebody 
has to give a little bit here and there, as we all understand, 
as part of that negotiation process. And I think that it does a 
disservice to ask the executive branch to try to go beyond the 
language that this body has negotiated.
    Mrs. Miller. Thank you.
    Can you explain the background behind your organization's 
support for eliminating unfair barriers for faith-based 
organizations?
    Mr. Sasser. Well, we represent people of all faiths, and in 
particular, any time a particular viewpoint, religious 
viewpoint, is in the minority from the mainstream ideas of what 
is orthodox and what is--what the mainstream might think is the 
right thing to do, there is going to be a lot of pressure on 
them, both social pressure and political pressure and then, 
ultimately, legal pressure to change their mind, to conform 
their religious beliefs to what the larger public would like 
them to have.
    I think it is the work of the First Amendment to protect 
those minority positions and that is what we focus on. We focus 
on battling against government overreach into religious affairs 
because we believe that what the promise that Thomas Jefferson 
made to the Danbury Baptists is true, which is that the 
government should not be interfering with religious entities 
and their beliefs.
    Mrs. Miller. I have one other quick question. How can we 
strive to make sure that the LGBTQ rights and the religious 
freedoms rights coexist?
    Mr. Sasser. The best way to do that is through the proper 
negotiation and congressional process that we have here instead 
of asking the executive branch to do it by fiat, which this 
particular administration doesn't appear to want to do.
    Mrs. Miller. Thank you. I yield back my time.
    Mr. Raskin.[Presiding.] Thank you.
    The gentlewoman from the District of Columbia, Ms. Norton, 
is now recognized for her five minutes of questions.
    Ms. Norton. Thank you very much. I particularly appreciate 
this hearing because my own district, the District of Columbia, 
is regularly targeted by the minority for its laws regarding 
the LGBTQ community.
    An example is the Religious Freedom Restoration Act, which, 
as you know, is used to overturn--has been used to overturn 
laws that protect the LGBTQ community. But it was declared 
unconstitutional as applied to the states but not the Federal 
Government and the District of Columbia, which is another 
reason that the passage of our statehood bill this year is so 
important.
    RFRA has been used as a justification even recently--
Senator Ted Cruz, here in the House, Representative Vicki 
Hartzler--for attacks on the District's human rights amendment, 
and that was an amendment which I was--that I was able to get 
that rider, as they are called, taken off.
    But that was a law in the District of Columbia that said 
that you couldn't deny that universities, public schools or 
private schools, both, could not deny the use of their 
facilities--their school facilities.
    An example of that would be your facility to holding a 
meeting. Initially, Georgetown University, very distinguished 
Catholic university--perhaps the most distinguished--were in 
favor of that denial.
    But Georgetown has overturned its own views on that and now 
allows LGBTQ students to organize on their campus and to have 
use of their facilities to hold meetings.
    We are seeing a repeat here by some on the other side of 
what we have just gone through with respect to the Census. And 
the Census, you will remember, we were enshrining ignorance of 
who was in the country. So, want to count noncitizens even 
though the Constitution says all persons shall be counted.
    So, what we are seeing with this administration is they 
don't want to count LBGTQ people either. So, while initially, I 
guess, from the Census as left to them by the Obama 
Administration, they included sexual orientation in the 2020 
Census.
    But then they quickly came back and said, oh, that is a 
mistake. We don't want to know anything. We don't want to count 
the LBGTQ community.
    So, just as with whoever is in the country they don't want 
to know, so they don't want to know anything about the LBGTQ 
communities, right. They don't exist as far as this 
administration is concerned.
    So, I would like to ask all of you to discuss how you 
think, why you think, the Federal Government could better serve 
the LBGTQ community, or not, if they knew more about the size 
of that community, the demographics, the needs of that 
community.
    Why do you think the Federal Government--could the Federal 
Government better serve or is it simply irrelevant to the 
Federal Government who LGBT community people are in our 
jurisdiction--if I could get everyone to respond to that--in 
our country, everybody to respond to that question. Do we need 
to know and, if so, why do we need to know?
    Mr. Olivares. Thank you for the question. I believe that 
the Federal Government should step in and help end 
discrimination. I can't talk about a lot of the laws and a lot 
of the government things, but I can talk about my personal 
experience of how the government could have helped me.
    I could have helped support my foster parents, first and 
foremost, with services on how to speak, how to handle, how to 
take care of a gay young man in their home and how they could 
have cut down the bullying, cut down the derogatory terms and--
--
    Ms. Norton. If they had had--if we had had information on 
what--I want to get everybody to answer. So, if we had had that 
information then maybe action could have been taken of the kind 
you had lived through.
    Mr. Minton?
    Mr. Minton. Yes, I certainly believe that the Federal 
Government needs to count LGBTQ people in the Census, and I 
believe that they need to do that for a number of reasons.
    The LGBTQ population is greatly underserved and if we know 
how many of us are truly out there then I think that that would 
lead to the services that we need.
    For example, 40 percent of the transgender community has 
attempted suicide. We need culturally competent care. When the 
transgender community is subject to medical denial due to anti-
transgender bias that number jumps to 60 percent attempted 
suicide rate.
    We need--we need medical providers out there. We need all 
sorts of services. But we are never going to know how much we 
need unless we are truly counted. So, I thank you for all of 
the work that you have done, and I urge all of us to continue 
in these efforts.
    I think if the Federal Government were to sit down with 
us--I fear that they are hostile to our community and by their 
actions they have shown that--but if they were to sit down with 
us then perhaps they could have a sense of compassion and see 
that we are people and that we do count and that we should 
count.
    Mr. Raskin. OK. The gentlelady's time has expired.
    Now we are going to go to the gentleman from Kentucky, Mr. 
Comer, and he is recognized for his five minutes of questions.
    Mr. Comer. Thank you, Mr. Chairman.
    I just want to take a moment to reset some context for 
today's hearing.
    Freedom from government coercion is a right afforded to 
every American no matter their sexual orientation or gender 
preference.
    The Trump administration's regulations do not deny LGBTQ 
individuals their fundamental civil rights. What the 
administration is doing, as they should, is revisiting the 
balance between religious conscience and LGBT rights, because 
many Americans had concerns with how this balance swung way out 
of proportion during the Obama Administration.
    LGBT Americans should and do have absolute freedom from 
discrimination, just as all Americans should have the absolute 
freedom from mandated acceptance of an ideology.
    So, with that in mind, I really want to shed some positive 
light here on the vital role that faith-based organizations 
play in my communities in the 1st congressional District of 
Kentucky and in many communities throughout the United States.
    There is a spectacular organization in my district called 
New Pathways for Children. They are a faith-based organization 
running two group homes with licensed counselors and any 
resources that children would ever need.
    They care for children who suffered maltreatment from 
neglect, abandonment, or abuse. They serve children who 
experienced poverty, homelessness, incarceration of a parent or 
parents who enter drug or alcohol rehab.
    And yes, children are encouraged to explore faith and given 
regular opportunities for personal spiritual growth through 
biblical study, worship, retreats, camps, and mission trips.
    So, today, I really do take offense to framing religious 
organizations like these as the enemy when in fact they are 
doing some of the best work to help aid children in need.
    To that end, Mr. Sasser, I have a couple of questions with 
respect to foster care. Can you elaborate on the diverse 
backgrounds and needs of the hundreds of thousands of children 
in foster care, briefly?
    Mr. Sasser. Well, the foster care industry is served by a 
wide variety of different types of agencies, some of which are 
motivated by their religious beliefs. Some are secular. Some 
are religious but have different beliefs about how families 
should be structured and that sort of thing.
    One of the best things about our system is that we have a 
lot of freedom and a lot of choice, and not every family is 
going to be the same. I think that it is important to have 
different agencies that are recruiting parents from different 
types of backgrounds because I think it is important.
    If you have an orthodox Jewish child who suddenly is in the 
foster care system, I think that it is important that there be 
an orthodox Jewish foster care agency that can help recruit and 
find a home for that person.
    I don't know how else, you know, you would properly serve 
them in that way.
    Mr. Comer. And I agree. These children need a diversity of 
individuals working on their behalf to provide them a loving 
home.
    Mr. Sasser, why would anyone want to close a loving 
supportive well-run foster home and why would anyone want to 
close off such an avenue to help these children in need?
    Mr. Sasser. I don't know. I think President Clinton 
actually said it best. He said, ``But let us never believe that 
the freedom of religion imposes on any of us some 
responsibility to run from our convictions.
    Let us instead respect one another's space, fight to the 
death to preserve the right of every American to practice 
whatever convictions he or she has. But bring our values back 
to the table of American discourse to heal our troubled land.''
    I don't think anyone can say it better than that.
    Mr. Comer. My last question, and you can educate me on 
this. Did Pennsylvania close a foster home run by a parent of 
the year? Are you familiar with that situation?
    Mr. Sasser. I am not familiar with that specific situation. 
I apologize.
    Mr. Comer. OK. Well, I appreciate--I appreciate the hearing 
and I hope that my statement isn't meant to offend anyone.
    But people in the faith-based community provide so many 
valuable services to people in need and it is just unfortunate 
that they are constantly under attack by many members of this 
committee.
    I hope that in my brief five minutes I can shed some light 
as to some of the good things they are doing and, hopefully, we 
don't create any more unintended consequences for these faith-
based organizations that are providing an invaluable service to 
children and women all across America.
    Mr. Chairman, I yield back.
    Mr. Raskin. Thank you very much.
    Now the gentleman from California, Mr. Rouda, is recognized 
for his five minutes of questions.
    Mr. Rouda. Thank you, Mr. Chairman.
    There is one undeniable fact and that is discrimination is 
discrimination, period, regardless of how it occurs. And with 
the testimony we have heard today I feel like I am on the 
Republican absurdity train as we hear some of these arguments.
    I want to be clear here. Federal law does not expressly 
prohibit discrimination against the LGBTQ community.
    And Ms. Warbelow, I am going to direct my questions toward 
you. Is that a correct statement what I just said?
    Ms. Warbelow. There are very few places in Federal law 
where there are express protection for LGBTQ people, and right 
now the Supreme Court is contemplating whether or not to strip 
away rights from the LGBTQ community under Title 7 and, 
potentially, other laws as well. We need express protections to 
guarantee nondiscrimination.
    Mr. Rouda. So, let us walk through these religious 
exemptions as we take a trip on this absurdity train. We talked 
a little bit earlier about the idea in a court case that 
supported the notion that an employer can withhold birth 
control and condoms to people that work for them because it is 
against their religious beliefs. Is that correct?
    Ms. Warbelow. That is correct. Hobby Lobby.
    Mr. Rouda. OK. There are religions who believe that no 
medical care should be provided whatsoever to them or their 
children.
    So, if we take this absurdity train a little bit further 
down the road, is it possible that in the belief of religious 
exemptions that you would then not have to provide any health 
care to your employees if that was your religion?
    Ms. Warbelow. Ignoring the confines of Hobby Lobby, this 
administration has put forward the idea that doctors and other 
medical care providers should be able to refuse to perform any 
type of medical service that conflicts with their beliefs.
    Mr. Rouda. So, going back to the situation that Mr. Minton 
experienced first hand, if a hospital, religious based, that 
did not believe in addressing the medical needs of the LGBTQ 
community under the Trump administration in the absurdity of 
the Republican argument that they are making, all health care 
services could be denied by that hospital and it is not a 
problem because Mr. Minton can just go somewhere else. Is that 
the argument?
    Ms. Warbelow. That is the intention of this administration, 
as they have made clear through their regulations.
    Mr. Rouda. So, let us go a step further down the path here, 
because there are many protected classes that include race and 
color.
    So, if those classes were not directly protected under U.S. 
law and somebody had a faith-based reason to discriminate 
against them, under the Trump administration and the 
Republicans who support it they too could be discriminated 
against. Is that correct?
    Ms. Warbelow. So, the Trump administration in their filings 
has drawn a hard line at race in most circumstances. But they 
have made clear that individuals with disabilities, women, 
people of minority faiths, and the LGBTQ community should be 
subject to a different set of standards, allowing for 
widespread discrimination including in the health care space.
    Mr. Rouda. So, it is okay to discriminate against some 
people, just not all people, depending on their specific 
circumstance, and whether those circumstances are specifically 
protected under United States law.
    I guess my question is if there were other communities that 
were not specifically covered under U.S. law is it possible 
that Republicans would also seek religious exemptions that 
would allow discrimination against those communities?
    Ms. Warbelow. It is certainly possible. What I am hearing 
is an expectation that everything be codified in statute before 
someone be provided protections. That is not the history of our 
country.
    Agencies have long adopted regulations that provide 
protections for beneficiaries on a number of bases and the idea 
that they would no longer have the freedom to do so is quite 
troubling.
    Mr. Rouda. Mr. Minton, if I could move to you. I would like 
you to expand a little bit more on your personal experience of 
having health care denied to you. If you would take a few 
moments.
    Mr. Minton. Yes. Well, my personal experience is having 
health care denied to me did not end with my original 
hysterectomy. It has continued.
    Shortly after my phalloplasty surgery I had an issue with 
my catheter not staying place, and I went to the Urgent Care 
and they couldn't take care of me because they couldn't take 
care of that issue, and they sent me to an emergency room. 
Unfortunately, the emergency room was in the same parking lot 
that--and it was a Dignity Health hospital.
    I refused to go to the emergency room that was a Dignity 
Health hospital because they refused to recognize that I exist 
as a transgender person and instead I went into a public 
restroom and I called my surgeon and asked that they give me 
the directions over the phone, and while they were giving me 
the directions I performed the operation on myself.
    Not only that, but more recently a pharmacy made a mistake 
and instead of giving me five pills of 25 milligrams each they 
gave me five pills of 125 milligrams each. I was staying at my 
parents' house and they discovered me barely able to speak and 
unable to walk.
    The nearest emergency room was Mercy San Juan Medical 
Center which, as I said earlier in my testimony, was a Dignity 
Health chain. They wanted--I needed to go to the emergency room 
and instead of going in my drug stupor and my--even in my 
inability to talk, I was able to make out the sound no, not 
that.
    They took me to emergency room farther away, and just to 
relay the seriousness of this, when I got to that emergency 
room, they treated me as a stroke victim for a number of hours.
    So, it is not only me that is avoiding these hospitals. I 
talked to friends and family who are both LGBTQ+ and not, and 
they won't go to these hospitals either. It is important to 
mention that one in six hospitals in California are Catholic--
are in Catholic--are Catholic beds.
    We can't go to these hospitals, and when it is in rural 
areas it is even worse. It is the only hospital around. This is 
a matter of life and death.
    Mr. Rouda. Thank you, Mr. Minton, and thank you for your 
compelling testimony and showing the absurdity of this 
situation we are addressing.
    I yield back. Thank you.
    Mr. Raskin. Thank you very much.
    The gentleman from Georgia, Mr. Hice, is now recognized for 
his five minutes of questions.
    Mr. Hice. Thank you, Mr. Chairman.
    I will begin by saying upholding the First Amendment is not 
an absurdity train. Protecting the religious liberties of the 
people of this great country is not in any way absurd.
    Mr. Sasser, let me go to you quickly. On the issue of 
beliefs, the beliefs that people have, just in general, is it 
fair to say that beliefs impact people's behavior?
    Mr. Sasser. Well, beliefs drive and serve as the motivation 
for people and especially for charitable organizations. I mean, 
for example, some----
    Mr. Hice. Well, just generally speaking, it is fair to say 
that beliefs do impact behavior?
    Mr. Sasser. Well, sure.
    Mr. Hice. All right. So, let us take it a step further. 
Deeply held religious beliefs--do those deeply held beliefs 
impact the way people live?
    Mr. Sasser. Of course they do.
    Mr. Hice. OK. So, would it be fair to say that as it 
relates to religious beliefs, just within that context, would 
it be fair to say that people with those deeply held religious 
beliefs literally practice what they believe? Everything else 
is just religious talk.
    But if it is a deeply held religious belief they actually 
practice that?
    Mr. Sasser. I am sure they do.
    Mr. Hice. OK. So, is it also fair to say that when we are 
talking about religious liberty in America and the protections 
that we have under the First Amendment that those are not just 
an issue of where I worship or how I worship?
    Mr. Sasser. It is part of their everyday life.
    Mr. Hice. It is part of their everyday life. So, an 
individual's deeply held religious beliefs go far beyond the 
walls of a church or synagogue or a building of faith.
    Those deeply held religious beliefs actually literally 
daily impact issues related to how that person works, play, 
their recreation, their politics, their family life and their--
obviously, their worship life. Is that fair to say?
    Mr. Sasser. Exactly. It is their entire life.
    Mr. Hice. OK. So, with that, would you consider any 
attempts from government or otherwise that would prevent or 
disable people who hold deeply held religious beliefs from 
practicing those beliefs to be problematic?
    Mr. Sasser. Well, not only--I don't think that just me that 
thinks it is problematic. Our founders thought it was 
problematic and that is why they put in the First Amendment to 
the United States Constitution, in order to protect religious 
liberty.
    That is why this body passed the Religious Freedom 
Restoration Act in 1993 when they felt that the Supreme Court 
was not honoring the original meaning and understanding of the 
First Amendment.
    Mr. Hice. So, what you do on a daily basis is help defend 
people of faith who are increasingly in this country 
experiencing hostility, an environment--and we see it. I have 
dealt with this myself for 20 years plus, seeing an increase of 
hostility toward people of faith on multiple fronts.
    Would you consider it in and of itself discriminatory 
toward people of faith for government or other entities to come 
in and try to force those people with deeply held religious 
convictions to forsake those convictions or close the doors of 
their business or whatever it is that they are involved with?
    Mr. Sasser. Well, not only is its unconstitutional 
religious viewpoint discrimination but, I mean, there are 
entire bodies of law that support--to support that.
    Mr. Hice. So, you would say that is in of itself 
discriminatory?
    Mr. Sasser. Sure, it is.
    Mr. Hice. All right. Your organization has called religious 
freedom the foundational right that all others are built upon. 
Would you elaborate on that?
    Mr. Sasser. Well, sure. The worst competition for a 
totalitarian form of government is for its people to believe in 
a power that is greater than government and for people to have 
an allegiance to something that is greater than the government.
    I remember teaching at a law school, a seminar, in Romania. 
It wasn't too long after the fall of communism there but it had 
been some years, and the students found it quite remarkable 
that I would suggest that right preexisted government and that 
there are certain foundational rights that are embedded not 
only in the Constitution but are embedded endowed by our 
Creator as our Declaration of Independence acknowledges.
    And those rights pre-exist government and any attempt of 
the government to impact those rights must be met with heavy 
resistance.
    Mr. Hice. I thank you, and I thank the chairman.
    We have got to understand discrimination goes both ways and 
deeply held religious beliefs impact the way people daily live, 
and any attempt to eradicate that is, in itself, 
discriminatory.
    Thank you, Mr. Chairman. I yield back.
    Mr. Raskin. Mr. Hice, thank you for that illuminating 
exchange, and I want to pick up on that with my own five 
minutes of questioning because the moment that we are at right 
now in terms of trying to clarify the relationship between the 
nondiscrimination norm under equal protection for all citizens 
and religious liberty is a moment that we have arrived at at 
other times in our history.
    So, I would like to go back to the 1960's when the first 
civil rights laws were created to try to include African 
Americans who had been the victims of Jim Crow discrimination.
    So, I am thinking of Supreme Court decision like Heart of 
Atlanta Motel, Dolly's Barbecue case, and other public 
accommodations decisions where restaurant owners, lunch counter 
owners, department store owners made precisely this same First 
Amendment claim, invoking either religious freedom or the 
freedom of association, and they said that if you are making me 
serve black customers or interracial parties you are violating 
my religious freedom because we believe that this is 
fundamentally offensive to our religious system. So, we don't 
want to use our restaurant or department store or hotel or 
motel or lunch counter in this way.
    Yet, that was overridden by the Supreme Court saying if you 
are a place of public accommodation and you are dealing with 
civil rights law, you have to comply with the law just like 
everyone else does.
    So, isn't that illuminating in terms of this debate that we 
are having today, Ms. Warbelow? Let me ask you.
    Ms. Warbelow. Absolutely. The Supreme Court recognized, as 
it has over and over again, that there are limitations to our 
fundamental rights when those fundamental rights end up 
impeding upon the rights of others.
    It is one of the reasons that the Supreme Court, so 
critically in Piggie Park, made clear that despite the owner's 
sincerely held religious beliefs about separation of the races 
he was still obligated to serve African Americans.
    Mr. Raskin. OK. So, those views are sincerely held by 
racist restaurant owners or racist amusement park owners or 
racist theater owners. Yet, the courts repeatedly found 
throughout the 20th century that those views could not overcome 
the fundamental public accommodation equal protection rights of 
the people, right? That is because they are in the stream of 
commerce in a public accommodation.
    Now, of course, any person who disfavors interfaith 
marriages or same-sex marriages or interracial marriages 
doesn't have to invite people over to their house for dinner if 
they don't want to.
    They don't have to be friends with them. But if you enter 
the stream of commerce and you set up a restaurant or you set 
up a hotel or motel, you are subject to all of the public 
accommodations laws, aren't you?
    Ms. Warbelow. That is correct.
    Mr. Raskin. That is true for hospitals as well, isn't it?
    Ms. Warbelow. For those places that define hospitals to be 
places of public accommodation.
    Mr. Raskin. And it is true for the provision of Federal 
Governmental services, isn't it? Isn't--that is really what 
this discussion is about, whether the equal protection norm, 
the anti-discrimination norm, should apply when we are talking 
about the distribution of Federal tax dollars that come from 
all citizens, right?
    Ms. Warbelow. This is about protecting the most vulnerable 
among us.
    Mr. Raskin. So, the argument about whether or not it is the 
rights of the person who wants the services of a hospital or it 
is the right of the hospital to deny service, that is a problem 
that we have seen before, isn't it?
    Ms. Warbelow. Yes, it is.
    Mr. Raskin. I mean, is there any reason to think that 
America would be better off if we turned the clock back to a 
time when it was okay for the providers of services, whether it 
is a hotel or motel or restaurant, a hospital, an adoption 
agency to discriminate against the people who are served?
    Ms. Warbelow. Not only is this dangerous for LGBTQ people, 
it is also dangerous for people of faith. There are many 
disfavored religious minorities within this country, and it is 
terrifying to think that we would undermine our longstanding 
civil rights laws to allow for discrimination against people of 
faith as they operate through daily life. That is why those 
nondiscrimination laws that apply equally to all protected 
characteristics exist.
    Mr. Raskin. All right. The--I think Mr. Hice began by 
stating something which I found very optimistic and promising. 
He said the notion that the Trump administration is somehow 
attacking the LGBT community is wrong. The United States 
continues to be a world leader in guaranteeing the civil rights 
of all including the LGBT community.
    Under President Trump the Federal Government has sought to 
treat all Americans, gay or straight, religious or 
nonreligious, fairly and justly. I would like that to be true. 
Is that true?
    Reverend Sloan, let me come to you.
    Reverend Sloan. No, that is not true.
    Mr. Raskin. Well, can you just explain why?
    Reverend Sloan. We have seen our rights continue to be 
eroded under this administration. It takes different forms. But 
relative to religious liberty, you know, I am--I am one of 
those rare clergy I don't like to talk in front of people. I 
get nervous, and I am not a lawyer.
    But I have always believed, and I have always been taught 
that your right to swing your fist stops at somebody else's 
nose. And what we have seen under this administration is that--
is that we are hitting, and it is hurting people and, in 
particular, it is hurting people who are isolated 
geographically and it is hurting people who are isolated by 
poverty.
    Mr. Raskin. OK. I will just close with the thought that if 
you read James Madison's beautiful ``Memorial and 
Remonstrance'' against religious taxation in Virginia, the 
argument he made was that we want so much religious liberty in 
America that the government would not interfere in anybody's 
worship, anybody's relationship between himself or herself and 
God--that that is what the heart of religious liberty is.
    And to transmogrify it into the right to discriminate 
against other people in the provision of essential services 
strikes me as a deformation not only of equal protection but of 
religious freedom as well.
    With that, I am going to recognize the gentleman from 
Texas, Mr. Roy, for his five minutes of questions.
    Mr. Roy. I thank the chair.
    I would like to start with a couple quick questions. Mr. 
Sasser, I only have five minutes so let us try to move through 
a couple of them quickly.
    But on this point that the--my friend from Maryland there 
has raised, my recollection, right, was that the Civil Rights 
Act, for example, is very careful in the way Congress talked 
about it in terms of--or structured it, I should say, not 
talked about it--in terms of enumerating the businesses it 
would cover, right, in motels, restaurants, places that serve 
food and so forth in the stream of commerce.
    Can you talk a little bit about what the gentleman from 
Maryland just talked about in the context of our current 
conversation with respect to public accommodation and then 
protecting religious liberty, for example, for cake bakers or 
florists and others where these issues arise?
    Mr. Sasser. Sure. Well, actually the Congress led the way 
in the late 19th century in passing the Civil Rights Act. It 
was the Supreme Court that overturned it and I believe 
erroneously, which set back civil rights many, many decades.
    But to the point with the Civil Rights Act of 1964 it, 
obviously, has a very--it is long, but it is a limited list of 
various institutions that are covered by that.
    But one of the things that even--that has gone further is 
some states have passed various accommodation laws that have 
gone further than what Congress has passed, and those states 
are subject to the Constitution and, for example, for the cake 
bakers like Masterpiece Cakes the state of Colorado overstepped 
its bounds--its constitutional bounds--in enforcing its 
accommodation laws against Jack Phillips and Masterpiece Cakes 
and the Supreme Court ruled that in a 5-4 decision that that 
was a violation of the free exercise clause.
    Mr. Roy. Thank you for that, and I think that is an 
important point for us to be contemplating as we are talking 
about this and, you know, I understand my friend from Maryland 
is talking about the balance there and where the line--you 
know, to use the analogy that where the--somebody's fist stops 
at somebody's nose.
    But I think this is really important, right, because we 
have got individuals who, according to their religious faith, 
find it objectionable to bake a cake, deliver flowers, 
whatever, and we want to make sure we are protecting religious 
liberty and ensuring that that is covered.
    Let me switch gears for just a quick second here. Mr. 
Sasser, I think you are probably aware of Mr. Russ Vought. He 
is the director of the Office of Management of Budget and he 
had a rather contentious hearing over in the Senate.
    And there is a notable senator who may or may not be 
engaged in the current Democratic Presidential nomination 
process who berated Mr. Vought for comments he made about his 
views on his Christian faith.
    He had been a--he is an alumnus of Wheaton College and he 
had expressed in his private capacity prior to being nominated 
his beliefs in his Christian faith and expressed those publicly 
and, yet, Mr. Sanders sought to block his nomination and, 
importantly, I think put forth a religious test, essentially, 
and he said that Mr. Vought is, quote, ``really not someone who 
this country is supposed to be about.''
    To your limited knowledge of those facts, can you comment 
about whether religious tests are appropriate and whether Mr. 
Sanders was appropriate in that attack?
    Mr. Sasser. Well, the Constitution--the original 
Constitution, not just in the Bill of Rights--the original 
Constitution prohibited religious tests for public office very 
specifically because we are not going to discriminate against 
people because of their faith or if they don't happen to share 
the faith of someone else or in certain beliefs. Reverend Sloan 
and I, we may have different religious beliefs and we should 
not exclude each other, obviously, from public service.
    Mr. Roy. I appreciate that. I agree. You and I worked 
together before. I am proud of you being a Texan and what you 
do in protecting First Amendment rights and religious liberty.
    We worked together, as I recall, in a hearing, gosh, 
probably 14 or 15 years ago when I was in the Constitution 
Subcommittee with John Cornyn on religious liberty and we 
brought forward a host of examples of religious persecution 
across all faiths.
    If I recall correctly, we had a young lady who was quite 
delightful that we brought in from Oklahoma who was persecuted, 
basically, for wearing her hijab, and she came in and was a 
witness in our hearing and we made sure to highlight religious 
persecution in all respects across the Nation.
    I was wondering if you might, for the benefit of the 
committee--and I will turn it over and yield back my time and 
ask you a question. Can you provide some real-life examples of 
individual religious liberty being infringed upon at the 
expense, you know, of another and others, and can you just go 
through some of the examples you guys have dealt with at First 
Liberty?
    Mr. Sasser. Well, sure. One of the nearest and dearest to 
our heart and one that we are working on very much so are the 
Jewish synagogues that are just of New York City, and, you 
know, just in the neighboring town of Airmont, New York, just 
neighboring Monsey where they had the machete attack in one of 
the house synagogues there.
    Those communities are extremely hostile to the Orthodox 
Jewish community, and if you would see some of their campaign 
ads and some of the other things that they do, it is despicable 
that this is what is going on in this Nation.
    It is a difficult fight and it is a fight that the 
Department of Justice has been waging in that area for almost 
20 years and we still have not been able to eradicate the anti-
Orthodox Jewish community discrimination that is going on in 
that community.
    Religious discrimination is alive and well in this Nation 
and it takes vigilance to fight it.
    Mr. Raskin. All right. The gentleman's time has expired.
    Thank you, Mr. Roy.
    Now the gentleman from Illinois, Mr. Krishnamoorthi, is 
recognized for his five minutes of questioning.
    Mr. Krishnamoorthi. Thank you very much, Mr. Chairman.
    You know, I think that we are all talking about the 
coronavirus right now as a huge contagion. I think that 
discrimination is a contagious disease and I think that the 
more that the Trump administration justifies discrimination, I 
think the more that discrimination spreads and it hurts a lot 
of people.
    On May 4, 2017, in the White House Rose Garden, President 
Trump called the United States a, quote, ``nation of faith'' 
and a, quote, ``nation of tolerance.'' But I am concerned that 
his words that day did not reflect his actions.
    On that day, President Trump signed an executive order 
supposedly promoting free speech and religious liberty.
    Ms. Warbelow, before this executive order was signed, 
LGBTQ+ activists expressed concerns that it could lead to 
discriminatory policies across the Federal Government. Isn't 
that right?
    Ms. Warbelow. A leaked version of the original executive 
order outlined myriad ways in which the Trump administration 
intended to discriminate against LGBTQ people, and when the 
final executive order was signed it directed the Department of 
Justice to go agency by agency to implement unfounded 
interpretations of Supreme Court case law privileging religious 
viewpoints over the rights of LGBTQ people, women, people with 
disabilities, and, importantly, people of minority faiths.
    Mr. Krishnamoorthi. Can you give us a couple examples of 
that?
    Ms. Warbelow. So, you know, one of the things that we have 
been talking about is discrimination on the basis of religion 
by religiously affiliated adoption and foster care agencies.
    The Department of Health and Human Services gave a waiver 
to the state of South Carolina to allow for discrimination by 
an agency that is a conservative Christian agency that has 
discriminated not only against LGBTQ people but the waiver was 
specifically given to allow that agency to discriminate against 
Jewish people and against Catholic people. And this is an 
agency that receives 90 percent of the funding available to 
provide foster and adoption care within the state.
    Mr. Krishnamoorthi. Well, this is deeply concerning. You 
know, as a member of a racial, religious, and ethnic minority, 
I am deeply concerned when anybody is allowed to discriminate 
on the basis of what you said is happening.
    You know, Mr. Sasser, my name is Raja Krishnamoorthi. In a 
prior hearing I was called Roger Christian Murphy and, in fact, 
the other day Huff Post called me Ro Khanna, and Ro Khanna was 
called Raja Krishnamoorthi.
    I prefer to go by Raja Krishnamoorthi. You can call me Raja 
or you can call me Mr. Krishnamoorthi. I presume you are Mr. 
Sasser. Is that right?
    Mr. Sasser. Yes, sir.
    Mr. Krishnamoorthi. And I presume that you would like me to 
call you Mr. Sasser, not Ms. Sasser. Is that right?
    Mr. Sasser. Whatever floats your boat.
    Mr. Krishnamoorthi. Well, let me ask you this. Do you think 
it is an attack on religious liberty to refer to someone by the 
pronouns they prefer if that person happens to be transgender?
    Mr. Sasser. I know that just in my personal practice if 
somebody wanted me to call them something, I would call them 
that. I think most people are that way.
    You know, I think that there may be some religious 
institutions that have institutional reasons why they want to 
make sure that they adhere to their faith in some way that 
requires them to be very specific and I think there is room for 
that in our country, too. I think the way the----
    Mr. Krishnamoorthi. Hold on. Let me stop you there. You 
think there is room in our country for a religious organization 
or a religious figure to refer to someone by a pronoun or 
gender that is not consistent with the pronoun or gender that 
they prefer?
    Mr. Sasser. Well, if the alternative is that the government 
is going to by force make somebody use speech that they find 
religiously objectionable, that the government by force will 
make them do that, I don't think that there is room for a 
totalitarian move to have government force.
    Mr. Krishnamoorthi. I am sorry. You think that calling 
someone by a certain pronoun that they prefer would be a 
totalitarian move on our part?
    Mr. Sasser. No. That is not what I said at all. That is not 
what I said.
    Mr. Krishnamoorthi. That is exactly what you said.
    Mr. Sasser. No, it is not what I said at all.
    Mr. Krishnamoorthi. That is exactly what you just said.
    Mr. Sasser. I said that I would call somebody whatever they 
wanted, and I think most decent people would. But I also do 
believe that to have the government show up and try to force 
me----
    Mr. Krishnamoorthi. Is that an attack on your religious 
liberty to ask you to refer to someone by the pronoun they 
prefer?
    Mr. Sasser. Well, the alternative is that we have the 
government forcing people to engage in speech with which they 
have a religious objection. I don't know if everyone wants to 
go down that road.
    If the government can force someone to say something that 
they have a disagreement with, a deep religious disagreement 
with--forced speech--I mean, the U.S. Supreme Court dealt with 
that in West Virginia v. Barnette in 1943 during the height of 
World War II when everybody was trying to be as patriotic as 
possible, and West Virginia wanted to make little third graders 
stand up and say the Pledge of Allegiance. What is more 
American than that?
    But they had a religious objection to that forced speech 
and the U.S. Supreme Court in 1943 said, we are not going to 
force people to speak against their religious beliefs.
    Mr. Krishnamoorthi. But you compare--you compare calling 
someone by a gender pronoun that they believe to be 
inconsistent with their identity similar to forcing someone to 
engage in political speech that they disagree with. Is that 
what you are maintaining today? That is political speech.
    Mr. Sasser. What I am saying is is that it is free speech 
and it was enforced by the U.S. Supreme Court.
    Mr. Krishnamoorthi. Well, free speech is calling people all 
kinds of slurs but that is something that we prohibit. 
Discrimination is something that we prohibit, and it is 
prohibited by the law. I would respectfully submit that you 
should also subscribe to that principle.
    Thank you so much. I yield back.
    Mr. Raskin. OK. Thank you. The gentleman's time has expired 
and the gentleman from Wisconsin, Mr. Grothman, is now 
recognized for his five minutes of questioning.
    Mr. Grothman. Sure. How long have you been dealing in this 
area of law, Mr. Sasser?
    Mr. Sasser. I have been practicing in this area of the law 
for almost 18 years.
    Mr. Grothman. OK. Have you seen any change over time in the 
attitude of our society? Obviously, we have freedom of religion 
in this country. We are not supposed to favor one over the 
other.
    But I think, largely, this hearing is about whether we are 
able to impose one's either nonreligion or type of religion 
over somebody else's religion. And have you seen an increase of 
intolerance toward what I will call traditional religions in 
the last 18 years in this country?
    Mr. Sasser. Well, I think that we have always struggled as 
a nation with religious liberty trying to make sure that we 
strike the appropriate balances.
    We haven't always done it perfectly. There has been lots of 
cases at the Supreme Court over the years. The Jehovah's 
Witnesses had to fight. The Amish had to fight. There has been 
lots of different battles that have gone on.
    What I think is going on now is that for whatever reason 
RFRA--the Religious Freedom Restoration Act--was passed in the 
Senate 97 to 0. It was a voice vote in the House of 
Representatives.
    It was sponsored by Senator Ted Kennedy, and President 
Clinton had some really nice things to say in the Rose Garden 
when he signed the Religious Freedom Restoration Act. That 
bipartisan universal appreciation for religious liberty has 
collapsed.
    Mr. Grothman. Right. Twenty-seven years ago, could you ever 
imagine that bill coming to the floor, say, to this House right 
now? Maybe you don't follow the House right now. But would it 
ever--can you imagine coming to the floors--Ted Kennedy and 
Bill Clinton's bill?
    Mr. Sasser. I would hope that we are still the Nation that 
respects religious liberty as one of our founding principles 
and I think that a law that was passed by a voice vote in the 
House and 97 to 0 in the Senate that we had bipartisan support 
for people all across different political spectrums I would 
hope that we could achieve that once again.
    Mr. Grothman. OK. Talk about the establishment clause. Do 
you think it is accurate to say the establishment clause 
prohibits the government from favoring nonreligion over 
religion?
    Mr. Sasser. Well, the establishment clause--do you want to 
talk about the original meaning of the establishment clause?
    Mr. Grothman. Sure.
    Mr. Sasser. I mean, the original meaning of the 
establishment clause, as Justice Joseph Story pointed out in 
his--in his commentaries on the Constitution--I believe it was 
around 1833. He was a former chief justice of the U.S. Supreme 
Court.
    Actually, [it] had a very limited view of the establishment 
clause as only applying, obviously, to Congress as it says, but 
only as to what we would call the establishment of religion as 
such--that the government would set up and support a particular 
religion.
    It wouldn't be for another century and a half that the 
court would evolve that understanding into some of the 
establishment clause thinking that we see today.
    Mr. Grothman. OK. Are you familiar with Hosanna-Tabor 
Evangelical Lutheran Church v. the EEOC?
    Mr. Sasser. Yes, I am very familiar with that. It was a 
unanimous decision by the U.S. Supreme Court.
    Mr. Grothman. Well, what scares me about the future of the 
country it was a unanimous decision. But, first of all, do you 
want to just briefly in 15 seconds describe to the crowd what 
the decision says?
    Mr. Sasser. Well, the decision essentially says that it is 
not the government's business to determine who is a minister or 
who is not for a religious organization and that they cannot 
pass laws that would impose burdens on any--of any kind on the 
employment of people that a religious organization determines 
to be a minister.
    Mr. Grothman. It was unanimous, huh?
    Mr. Sasser. Yes, it was.
    Mr. Grothman. Ruth Bader Ginsburg, that crowd?
    Mr. Sasser. Of course.
    Mr. Grothman. OK. Now, something that is not, of course, 
what happened in that decision on the appellate court level?
    Mr. Sasser. Well, it had gone the other way.
    Mr. Grothman. Three to nothing. Three to nothing. So, kind 
of scary in the future that there are a lot of people who 
graduated from our law schools who, apparently, don't get what 
the Supreme Court got, right?
    I will--earlier this year, the Trump administration issued 
nine rules aimed at protecting religious organizations from 
unfair and unequal treatment by the government. How will these 
proposed rules protect constitutionally protected religious 
liberty?
    Mr. Sasser. Well, I think the most important function of 
the executive branch is to conform the regulations to Congress 
and to existing law and clearly established.
    Mr. Grothman. I think I can give you one more question 
because we are limited to five minutes and I am sorry to cut 
you off.
    A lot has been said here about freedom for religious 
institutions, freedoms I have once I step across the--step in 
the doorway of a synagogue or a church. Do you think those 
religious freedoms should disappear just because I don't work 
for a church or I am not in a church?
    Mr. Sasser. No, and neither did our Founding Fathers. That 
is why they use the word free exercise because the word 
exercise means doing things.
    Mr. Grothman. Thank you.
    Mr. Raskin. Thank you, Mr. Grothman.
    Just one quick postscript to what you were saying about the 
Religious Freedom Restoration Act. Of course, the Supreme Court 
struck it down.
    Justice Scalia wrote the opinion, arguing and holding that 
the free exercise clause does not excuse anyone from complying 
with neutral universally applicable laws. I just thought we 
needed to get that in there.
    Mr. Connolly, you are recognized now for five minutes--the 
gentleman from Virginia.
    Mr. Connolly. I thank the chair.
    Did you say Justice Scalia wrote that?
    Mr. Raskin. Yes.
    Mr. Connolly. My, my.
    [Laughter.]
    Mr. Connolly. Reverend Sloan, you are with Union 
Theological Seminary. Is that correct?
    Reverend Sloan. It is, yes.
    Mr. Connolly. So, I assume from that title you have got 
something to do with, I don't know, religious matters.
    Reverend Sloan. Yes.
    Mr. Connolly. And, you know, what we have been hearing 
here, my friends on the other side of the aisle, is what I 
consider to be this false dichotomy.
    To propound rights for American citizens who happen to have 
a different sexual orientation is directly in conflict with my 
religious freedom and when I weigh that dichotomy I got to come 
down on religious freedom because otherwise it is an assault on 
my religious freedom.
    From the perspective of where you work and your own 
religious orientation, what is your view about that? Is 
religion being put under assault if we assert LGBTQ rights?
    Reverend Sloan. No, absolutely not. So, Union Theological 
is not only interdenominational, it is also interfaith. So, the 
work that Mr. Sasser does is very important, and we would be 
fully in support of that.
    Yet, again, you know, we are just--we are making it more 
difficult than it needs to be. Of course, you get to practice 
your religion and you should, until that religion is used to 
discriminate and that is exactly what is happening with LGBTQ 
people.
    Mr. Connolly. So, just traveling down history a little bit, 
do you think religion was used to justify slavery?
    Reverend Sloan. It absolutely was, yes.
    Mr. Connolly. Absolutely was. And didn't some denominations 
actually break along the lines of North-South over that very 
issue, even though those were denominations? They were 
religious denominations.
    Reverend Sloan. Yes.
    Mr. Connolly. And did not those divisions, racial 
divisions, last for a very long time even after the Civil War?
    Reverend Sloan. Yes, and continue to do harm.
    Mr. Connolly. And were Biblical justifications or religious 
justifications used to also justify racial discrimination and 
segregation during the hundred-year Jim Crow period?
    Reverend Sloan. Yes.
    Mr. Connolly. So, we have a long history of people invoking 
religion for their own political purposes, one might say.
    Reverend Sloan. Yes. So, you used the word use, but I would 
say it is abused. It is an abuse of Scripture, yes.
    Mr. Connolly. Abused. Even more accurate. OK.
    Ms. Warbelow, HRC exists to advocate for and promote the 
rights of LGBTQ individuals in America. Is that correct?
    Ms. Warbelow. That is correct, including LGBTQ people of 
faith.
    Mr. Connolly. Including LGBTQ people of faith. That is 
right.
    The administration has, it seems, consciously rolled back 
protections for LGBTQ individuals in America. Attorney General 
Jeff Sessions, using religious liberty as a rationale to 
undermine protections that already were on the books or existed 
through executive orders for such individuals. Is that correct?
    Ms. Warbelow. That is correct. The attorney general has 
misused religious liberty in order to justify a widespread 
attack on LGBTQ people, erasing us from everything from 
websites to laws.
    Mr. Connolly. We have seen that across the board in terms 
of transgender rights advocacy, the Federal Government stepping 
in to protect. Now, we heard a little bit about, you know, the 
heavy hand of the Federal Government--tyrannical, I think, was 
the word maybe used.
    I am going to ask you to go down the road of history just a 
little bit. Do you think--just speculate with me--that if the 
Federal Government hadn't intervened that civil rights and 
voting rights would have progressed nonetheless in America?
    Ms. Warbelow. Potentially, but it would have been a long 
slow road to hoe.
    Mr. Connolly. Well, Jim Crow was a hundred years. People 
were still being murdered for trying to exercise their right to 
vote in 1964 and 1965 and, of course, we still see the vestiges 
of hate in other examples, most recently in Charleston--the 
tragedy in Charleston.
    But it is hard for me to imagine without the Federal 
intervention that things would have changed.
    Ms. Warbelow. People are still being purged from voter 
rolls today because of their race.
    Mr. Connolly. Right. So, sometimes that role of the Federal 
Government is about protecting the rights of everybody, even if 
that means an intrusive presence for those who are perpetrating 
discrimination for their own benefit. Is that correct?
    Ms. Warbelow. Look, it should be the role of government to 
use its powers judiciously. But it is often necessary for 
Congress to ensure that everyone has a fair chance in this 
country.
    Mr. Connolly. I thank you. I thank the chair.
    Mr. Raskin. The gentleman yields back. Thank you very much.
    Let us see. OK.
    Then the gentlelady from Michigan, Ms. Tlaib, is recognized 
for her five minutes of questioning.
    Ms. Tlaib. Thank you, Mr. Chair.
    I want to be clear that, you know, one of the things that 
is frustrating is the administration's attack on LGBTQ+ 
communities started long before the recent attempts to expand 
religious exemptions.
    I think on day one--literally, day one of this presidency--
all mentions of LGBTQ+ rights were deleted from the White House 
website instantly.
    Religious liberty--I am going to put it in quotation--is 
simply this administration's latest excuse to continue its 
painful oppression of other people, including our LGBTQ 
neighbors.
    This type of consistent state-sanctioned discrimination has 
a detrimental effect on so many of our neighbors across the 
country, including in my home state of Michigan.
    In May 2019, two gay men, Mr. Davis and Mr. Blancher, and 
one transgender woman, Paris Cameron, were murdered in an anti-
LGBTQ hate crime in Detroit. And in this case, it wasn't really 
isolated, according to Human Rights Campaign. Ms. Cameron was 
one of the latest 22 transgender people murdered in 2019 alone, 
most of them who were women of color.
    Ms. Warbelow, would you agree with the American Medical 
Association's assessment that we face an epidemic of violence 
for trans women of color?
    Ms. Warbelow. Absolutely. The fact that trans women are 
being murdered on our streets, particularly trans women of 
color, is terrifying and it really underscores the way and 
which the rhetoric in our country has been ramped up to justify 
violence against people who are unpopular. This is a disturbing 
trend that has to stop.
    Ms. Tlaib. You know, violence in its nature is fueled by 
systemic issues like racism, homophobia, sexism, transphobia. 
But there is a role for the Federal Government to play.
    The Federal Government can act to underscore the dignity 
and worth of transgender people. The Federal Government can 
provide legal protections for transgender individuals when they 
encounter discrimination in their workplaces or in their 
schools.
    The Federal Government can prosecute hate crimes. It can 
create better reporting systems. It can train law enforcement 
on safeguarding transgender and gender nonconforming people 
from violence.
    Ms. Warbelow, in your opinion, do robust legal protections 
for transgender people matter as we seek to combat violence 
against transgender neighbors across the country?
    Ms. Warbelow. The government, as you mentioned, needs to 
take a robust comprehensive approach to ending violence against 
the LGBTQ community, particularly transgender people.
    No one single law or enforcement is enough, and even when 
the laws are on the books, we have to have an administration 
who is willing to enforce those laws and take seriously the 
day-to-day experiences of our neighbors and our siblings.
    Ms. Tlaib. And Mr.--Reverend Sloan, do you agree?
    Reverend Sloan. Yes.
    Ms. Tlaib. Mr. Olivares?
    Mr. Olivares. Yes, absolutely.
    Ms. Tlaib. Mr. Minton?
    Mr. Minton. Absolutely. Absolutely. And thank you for 
recognizing our transgender siblings, especially our 
transgender siblings of color who are being murdered on the 
street.
    Ms. Tlaib. Yes. You know, and I would ask my colleagues, 
especially Members of Congress, before you make decisions about 
people sit down with them and actually talk to them. I don't 
want to cry because I do this all the time to myself.
    But, you know, when you actually look at a person as a 
fellow human being and when sitting at a press conference as a 
mother--with a mother, another mother--that lost her child just 
because she was transgender, it was--it is very painful.
    Like, talk to them as fellow human beings. They are people 
and it is really frustrating, especially those that come from a 
place of faith, that they could just take away somebody's human 
dignity and say that they are less than, that they are 
disposable.
    Just watching this mother say, but she was the kindest 
woman ever and all she wanted to be was free, free to express 
herself, free to be whatever she wanted to be. But that is what 
our country is supposed to be about, right?
    If I want to be a, you know, unapologetic Muslim 
Palestinian woman who wants to speak up about other people's 
oppression I should be able to do that and not be labeled as 
some sort of, you know, person that is somehow less American 
because I speak up for other people's rights or just because of 
my identity, and trying to use that and fuel that kind of 
discrimination.
    So, I just don't feel like anybody in our country should 
live in fear of being who they are and we must do more to 
uplift these issues.
    But I always tell people, especially my neighbors who come 
all throughout Thirteenth District strong to town hall saying, 
Rashida, can we really talk about, like, transgender people--I 
don't want my kids to do that.
    I looked at them and I said, have you ever met a trans--
have you ever met a trans person. Like, have you ever talked to 
somebody in the LGBTQ community? Many of them have not. They 
haven't encountered--some of them-- I tell them, you probably 
don't even know.
    Just like many of my colleagues probably have never served 
with a Muslim woman every before. I mean, they are probably in 
shock right now. But, you know, they are experiencing it for 
their first time.
    I hope they see the passion or the thing because of my 
family's own oppression, my family's experience of being 
othered, of living in fear of who they are.
    So, I just thank you all for your leadership. But I think 
we need to be truthful and honest with ourselves of who we are 
as really--if we are really going to be this country that we 
are about everyone truly being free, completely and utterly, 
and not using faith or anything like that to infuse fear, which 
later infuses violence.
    So, thank you, Mr. Chair.
    Mr. Raskin. Thank you very much, Ms. Tlaib.
    The gentlewoman from New Mexico, Ms. Haaland, is now 
recognized for her five minutes of questioning.
    Ms. Haaland. Thank you, Chairman, and thank you all so much 
for being here today.
    There are more than 400,000 children in foster care across 
the country--400,000 children hoping to find a family to call 
home and love them unconditionally.
    This administration is trying to make it more difficult for 
these children to find homes and for LGBTQ couples to adopt by 
supporting discrimination.
    And on Monday the Supreme Court announced that it would 
take up a court case involving foster care to determine if 
states may act against discrimination or if they have to fund 
organizations determined to keep discriminating against the 
LGBTQ community.
    My daughter is queer. Every official involved in making 
these choices should have to look her in the eye and explain 
why her life should have been difficult if she were in foster 
care and why she should be discriminated against if she wants 
to give a child a home.
    Last year, I had the privilege of meeting Daryle Conquering 
Bear, an enrolled member of the Ogallala Lakota Sioux tribe and 
foster youth alumni. He is also two spirit. When he came out to 
his foster parents, they kicked him out. After that experience, 
he went back into the closet until last year.
    Chairwoman Maloney, I have Daryle--Chairman Raskin, I have 
Daryle Conquering Bear's testimony in support of the Every 
Child Deserves a Family Act and experience in foster care 
system and I would like to submit that for the record.
    Mr. Raskin. Without objection.
    Ms. Haaland. Mr. Olivares, thank you for being here today. 
You and Daryle both had to deal with injustice in foster care 
and I would like to take a few minutes to ask you more about 
you and your experience.
    You mentioned in your testimony that you spent five years 
in the Texas foster care system starting at the age of 13. What 
was it like having to navigate the foster care system as you 
were just become a teenager and figuring out who you are, 
including your sexuality?
    Mr. Olivares. Thank you. It was very difficult. It was 
scary. It was very lonely. As I mentioned in my testimony, I 
was placed 180 miles away from my home city and it was me and 
my brother.
    My brother was a year and a half younger than I was and so 
it was not--all those feelings but it was also trying to step 
in and be that parent for him and balancing all that with the 
sexuality battle that I was feeling inside it made it extremely 
difficult, which is when the suppressing started.
    Ms. Haaland. You mentioned the fears you felt when you went 
to church with your foster family or when you were called 
terrible slurs in your foster home. Were there times you 
thought you would rather be homeless than live under those 
conditions?
    Mr. Olivares. Yes, absolutely. There were so many nights 
that I stayed up crying because I was so miserable, and I 
didn't know how to talk about it. I didn't know who to turn to.
    I didn't feel comfortable or safe opening up to anybody and 
I would go to school the next day and just be so tired and 
sleepy just thinking would it be worth it just to step out of 
this house and never come back.
    Ms. Haaland. What difference could be more supportive homes 
and families make for the next generation of LGBTQ youth in the 
foster care system?
    Mr. Olivares. I think the first step is just eliminating 
discrimination, which the Every Child Deserves a Family Act 
would do. Right now in my state, foster children are subjected 
to conversion therapy, a discredited practice attempting to 
change their sexual orientation or gender identity.
    They say that discrimination, you know--you know, sometimes 
doesn't exist but it is not just existing for foster parents or 
adoption parents. It is for these young adults in foster care.
    Ms. Haaland. Thank you very much for your bravery in coming 
before the committee today. You are a powerful voice for 
change, and we are fortunate to have you in this fight. So, 
thank you very much.
    I have a few more seconds. I would like to turn to Reverend 
Sloan. A recent study found that as many as 30 percent of youth 
in the foster care system identifies a member of the LGBTQ 
community.
    Another study found than half of LGBTQ youth surveyed had 
at some point chosen to live on the street rather than in their 
foster home placement because they felt safer there.
    Reverend Sloan, why do LGBTQ youth disproportionately 
experience homelessness and what dangers does homelessness pose 
to LGBTQ youth?
    Reverend Sloan. So, the reasons why LGBTQ people are more 
likely to be homeless are--start very young. As they come in 
touch with who they are and they come out, oftentimes they are 
kicked out of their homes.
    Then if you add to that the harm that is done in the child 
welfare sector as it is to LGBTQ people, that further 
contributes to that.
    That cycle of poverty that starts young does not stop there 
and it continues throughout LGBTQ people's experience. Up to a 
third of people who are in LGBTQ need food assistance.
    This is a cycle that starts young and that the current 
systems to support getting out of it don't allow for and a lot 
of times that is on the basis of religious discrimination.
    Ms. Haaland. Thank you so much, and I yield, Chairman.
    Mr. Raskin. Thank you very much.
    And now the gentlelady from New York, Ms. Ocasio-Cortez, is 
recognized for her five minutes of questioning.
    Ms. Ocasio-Cortez. Thank you, Chairman.
    I am experiencing this hearing and I am struggling whether 
I respond or launch into this question as a legislator or from 
the perspective of a woman of faith because I cannot--it is 
very difficult to sit here and listen to arguments in the long 
history of this country of using Scripture and weaponizing and 
abusing Scripture to justify bigotry.
    White supremacists have done it. Those who justified 
slavery did it. Those who fought against integration did it, 
and we are seeing it today.
    Sometimes, especially in this body, I feel as though if 
Christ himself walked through these doors and said what he said 
thousands of years ago, that we should love our neighbor and 
our enemy, that we should welcome the stranger, fight for the 
least of us, that it is easier for a rich man--it is easier for 
a camel to go through the eye of a needle than for a rich man 
to get into a kingdom of Heaven, he would be maligned as a 
radical and rejected from these doors.
    I know, and it is part of my faith, that all people are 
holy, and all people are sacred, unconditionally, and that is 
what makes faith sometimes--that is what prompts us to 
transform because it is unconditional.
    It is not about that it is up to us to love parts of 
people. We love all people. There is nothing holy about 
rejecting medical care of people, no matter who they are, on 
the grounds of what their identity is.
    There is nothing holy about turning someone away from a 
hospital. There is nothing holy about rejecting a child from a 
family.
    There is nothing holy about writing discrimination into the 
law and I am tired of communities being of faith being 
weaponized and being mischaracterized because the only time 
religious freedom is invoked is in the name of bigotry and 
discrimination.
    I am tired of it. My faith commands me to treat Mr. Minton 
as holy because he is sacred. Because his life is sacred. 
Because you are not to be denied anything that I am entitled 
to. That we are equal in the eyes of the law and we are equal 
in my faith in the eyes of the world.
    So, I just have to get that out ahead of time because it is 
deeply disturbing, not just what is happening here but what 
this administration is advancing is the idea that religion and 
faith is about exclusion.
    It is not up to us. It is not up to us to deny medical 
care. It is up to us to feed the hungry, to clothe the poor, to 
protect children, and to love all people as ourselves.
    Now, I want to take a moment to acknowledge a trans woman 
from my district. I represent Rikers Island and I want to 
acknowledge the life of Layleen Polanco, because Layleen was 
being held on $500 bail at Rikers Island and she was put in 
solitary confinement. She was trans and she was neglected 
because of it.
    Polanco's family claimed in a lawsuit that her daughter's 
death on June 7th occurred as a result of personnel who failed 
to provide her safe housing, adequate medical care, and proper 
accommodation for her disabilities. She was 27 years old, and 
her life was taken because of who she was.
    There is nothing holy about that. Nothing.
    Ms. Warbelow, the Human Rights Campaign has done a great 
deal of work in the area particularly around trans women of 
color and protections of trans people.
    Is it correct that many transgender and gender 
nonconforming people experience a mosaic of marginalization--
homelessness, poverty, unemployment, denial of medical 
services, and abuse by law enforcement?
    Ms. Warbelow. And when they experience all of those things 
and they go to seek the critical benefits that the government 
provides, they are turned away once again, humiliated once 
again, and experience discrimination just for trying to 
survive.
    Ms. Ocasio-Cortez. I am sorry. I believe my time has 
expired.
    Mr. Raskin. The gentlelady's time has expired. Thank you, 
Ms. Ocasio-Cortez.
    Mr. Sarbanes is now recognized for his--oh, forgive me. You 
are next, Mr. Sarbanes.
    Ms. Pressley from Massachusetts is recognized for her five 
minutes.
    Ms. Pressley. Thank you, Mr. Chair, and I would like to 
just say I associate myself with the impassioned Christian 
grace and words expressed by my colleague, Representative 
Ocasio-Cortez, a moment ago.
    Last year, I introduced the Ending PUSHOUT Act to reverse 
the criminalization and marginalization of black and brown 
LGBTQ+ youth and cisgender girls in our schools.
    LGBTQ students, especially gender nonconforming students, 
are up to three times more likely to experience harsh 
disciplinary treatment even though gay and transgender youth 
are often the victims rather than the aggressors in school 
conflicts.
    The Ending PUSHOUT Act, which I introduced, would invest in 
the Department of Education's Office of Civil Rights, the sole 
office charged with holding schools accountable if 
discriminating against students.
    Meanwhile, under the failed leadership of Education 
Secretary Betsy DeVos, the OCR has abdicated this critically 
important responsibility.
    In February 2018, Secretary DeVos announced the OCR will no 
longer investigate any, any transgender discrimination claims 
in schools and according to the Center for American Progress, 
LGBTQ-related complaints were nine times less likely to be 
investigated under this administration than under the Obama 
Administration.
    Ms. Warbelow, what are some of the consequences of the 
Trump administration's decisions not to protect one of our most 
vulnerable student populations?
    Ms. Warbelow. Not only will these students experience 
discrimination in schools that goes unchecked, teachers feel 
disempowered to address the discrimination they see in front of 
them and sometimes teachers and administrators are actually 
engaging in the discrimination themselves.
    And when students face discrimination in education, they 
are more likely to end up a part of the homeless population 
that we were discussing previously. They are more likely to end 
up in that cycle of poverty and to need the services that the 
government so critically provides.
    Yet, there too they experience discrimination because we 
have not closed the gaps. We have not passed laws like the 
Equality Act that are absolutely fundamental to ensuring 
equality for all Americans in this country.
    Ms. Pressley. And the data does support the fact that 
elevated rates of PTSD among our LGBTQ children--trauma linked 
to bullying, familial and religious rejection, higher rates of 
homelessness--all lead to emotional distress, self-harm, and 
suicidal behavior.
    Ms. Warbelow, in what ways has this administration 
undermined the ability for schools to respond to trauma in 
LGBTQ students?
    Ms. Warbelow. This administration has discouraged students 
from seeking the appropriate care and support of school 
districts. It has allowed school districts to turn a blind eye 
and has encouraged school districts by rescinding critical 
questions on data collection instruments from understanding 
what the actual needs of the LGBTQ population are.
    Ms. Pressley. A moment ago, Representative Ocasio-Cortez 
brought into the room the tragic loss of life of a trans woman 
in her district and I want to bring into this space the loss of 
life of a--or, rather, a transgender man in my district who was 
denied health care.
    We know that discrimination against transgender individuals 
is pervasive in health care. In my home state of Massachusetts, 
Alexander Pangborn, a Hospice nurse and transgender man, was 
denied medically necessary gender-affirming health care by his 
employer. He works 40 hours a week for this company delivering 
care to people in their twilight years and, yet, was denied 
medically necessary care in return.
    This administration is reversing protections based on 
sexual orientation and gender identity in the Department of 
Health and Human Services and under the ACA. This means that 
people denied care who cannot afford a lawyer are denied 
justice.
    Mr. Minton, thank you for sharing your personal experience. 
What threat is posed when transgender individuals are denied 
gender-affirming care and lack of a pathway to justice?
    Mr. Minton. I mean, the threat that is posed is anywhere 
from the lasting scars that are in my life and in my heart to 
death.
    Ms. Pressley. This administration continues to abandon our 
LGBTQ+ neighbors by removing protections and barricading 
justice for the most vulnerable while funneling taxpayer 
dollars into discriminatory organizations.
    They think that by denying shelter and lifesaving medical 
care by starving, expelling, and incarcerating LGBTQ people 
they will just simply disappear, and this is abuse, plain and 
simple, and we just can't stand for it.
    Last August, our committee joined in a multi-committee 
bicameral investigation to understand how a rule green lighting 
this kind of anti-LGBT discrimination in health care was 
developed as well as who was behind it.
    Ms. Warbelow, could you explain how this refusal rule would 
further entrench marginalization of the LGBTQ community?
    Ms. Warbelow. By taking what is a statutory requirement and 
expanding it out of control, the administration is encouraging 
discrimination in a wide variety of health care situations 
including access to PrEP treatment for HIV/AIDS, fertility care 
treatment and access, and we know that hospitals are turning 
away trans patients not only for transition-related care but 
also for things like having a broken ankle.
    We have heard of a home nurse that refused to bathe a gay 
man because she believed that he was a sinner. She was his sole 
caretaker in a medical context. I can only imagine what people 
are doing to their trans patients.
    Mr. Raskin. Thank you. The gentlelady's time has expired.
    Now, thank you, Mr. Sarbanes, for your patience. The 
gentleman from Massachusetts, Mr. Lynch, is recognized for five 
minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank 
Chairwoman Maloney and also the ranking member for holding this 
important hearing.
    First of all, I want to thank the witnesses. Thank you for 
your courageous and thoughtful testimony and helping the 
committee with its work.
    I do want to repudiate this notion that has been floated 
here today that people of faith in the LGBTQ community are 
mutually exclusive. We have a huge population of LGBTQ+ members 
of our society across this Nation that unabashedly celebrate 
their faith and we have to acknowledge that.
    I also hold a deeply held belief that the objective of our 
society and of our government should be to create a nation 
where every child born into this society should be valued and 
protected and supported and loved whether that child is LGBTQ+ 
or straight and that that should be a national goal toward a 
more perfect union. That is where we should be headed.
    On January 16, President Trump announced that nine Federal 
agencies would be proposing new rules that heighten the risks 
that faith-based service providers might impose proscriptive 
religious practices on those seeking taxpayer-funded services.
    Those include Department of Justice, Homeland Security, 
HHS, Energy, Labor, Agriculture, USAID, and the VA, and we are 
still waiting for HUD to come forward with their regulations, 
and these regulations impact preschool, foster care, disaster 
recovery aid, substance abuse treatment, and much more.
    And under those rules, faith-based providers will no longer 
have to inform individuals that they are not going to be 
required to participate in religious practices, they are not 
required to inform individuals coming for services that there 
is a secular alternative.
    If they come to a religious hospital that institution is 
not required to say, hey, there is a place down the street that 
will also provide you services.
    So, in my own district we had to deal with a few years ago 
a suicide cluster. Fourteen young boys took their lives in 
about 18 months, and I founded a residential drug rehab and 
recovery home for adolescents because up until that point we 
were co-locating children in adult facilities, and it did not 
work out.
    But, Reverend Sloan, from your testimony, you are dealing 
with the same demographic, right? And so, tell me how this, in 
your view--you are doing this on a regular basis in Chicago--
tell me how this affects those kids.
    You know, because a lot of these kids are coming from homes 
that there is no support there. They are detached. They have 
got nothing. They are sort of just out there.
    How does this unwillingness of the administration to 
deliver these taxpayer-funded services in a way that is not 
open to all? How is that affecting the kids that you are 
seeing?
    Reverend Sloan. So, discrimination based on religion is 
wrong and it hurts in general. But when it comes to emergency 
services it is life and death itself, most often. And so, 
denying these kids or even adults who come for emergency 
services, denying them on the basis of religious discrimination 
is extremely serious.
    If I could, I would also----
    Mr. Lynch. Please go ahead. Go ahead.
    Reverend Sloan.--I would also like to just kind of--you 
mentioned that, you know, the idea of being LGBTQ and of being 
religious are not mutually exclusive despite that perception, 
and I just wanted to say really where that perception comes 
from.
    That comes from this small faction of religious people who 
kick kids out of their homes and who, you know, build this 
separation for some of us in the community between religion and 
who they constitutionally are and that goes forward within the 
faith communities themselves and then it, tragically, robs the 
young person themselves of their spirituality.
    Mr. Lynch. Thankfully, not every place in America is like 
that. In my own lifetime I have seen wonderful progress and I 
think we need to recognize that and keep pushing, keep pushing 
for, as we say, a more perfect union.
    Mr. Chairman, I yield back.
    Mr. Raskin. Thank you, Mr. Lynch. The gentleman's time has 
expired.
    And I come to the distinguished gentleman from Maryland, 
Mr. Sarbanes, recognized for five minutes for questioning.
    Mr. Sarbanes. Thanks very much, Mr. Chairman, and thank you 
to the panel today. Incredibly powerful and moving testimony. 
So, important that we are having this hearing. I want to thank 
you for joining us.
    We have been talking about this refusal to care rule over 
the course of the day, which seems to be using the guise or the 
rationale or the pretext of religious liberty to target the 
right of LGBTQ people to access health care without fear of 
discrimination. Of course, it has other implications as well.
    When the Department of Health and Human Services finalized 
that rule last May we perceived, obviously, that it could 
dramatically expand the ability of providers participating in 
Federal health care programs to deny care to patients on 
supposed religious or conscience grounds.
    So, this committee joined in a multi-committee bicameral 
investigation. We really kind of--it was an all-hands-on-deck 
effort to understand how the rule got developed. We wanted to 
get behind that--what were the motivations, what was the 
process, who was behind it.
    Six months later, HHS has not provided answers to the 
committee's questions, has not produced the documents that we 
requested. Instead, they just keep giving us publicly available 
documents that don't add any perspective.
    It is really hard to overstate the harm that this rule 
could cause. Panelists have, I think, done an excellent job in 
helping us appreciate that harm. When you look at things--
examples that have been touched on--a pharmacist who could 
refuse to fill a prescription for the HIV prevention drug PrEP 
for the person who is gay, a provider who could refuse to 
perform or assist with gender reassignment surgery for a 
patient, a hospital room scheduler who could refuse to assist a 
patient because they are trans.
    So far, fortunately, the rule has been blocked in the 
court. But we cannot take anything for granted. You have given 
a lot of testimony, a lot of specific testimony.
    But Ms. Warbelow and maybe Reverend Sloan as well, step 
back from me for a moment and just explain kind of in broad 
ways, in broad terms, broad strokes the impact that this kind 
of rule if it goes forward is going to have, almost the shock 
impact, I would imagine.
    Because we have been a lot of--this is the case with so 
many issues before the Trump administration where we felt like 
we were on a positive trajectory. We were making progress.
    We were bending the arc of the moral universe more toward 
justice and then wham, the Trump administration comes in and it 
kind of stops all that in an instant and begins to reverse it.
    So, if the two of you could speak to that in terms of your 
perspective on that, but also, because I know I will then run 
out of time and not be able to ask this next question, Mr. 
Minton, I would like your perspective as well.
    I always think about how humans, when we wake up in the 
morning and we are slowly kind of fluttering into consciousness 
and setting our coordinates for the day--where am I, who am I--
I think about children and young people coming into 
consciousness. Am I warm? Is there heat in my home? Do I have 
annoying hunger, or do I feel fed? Am I safe?
    And so maybe, Mr. Minton, you can talk a little bit about 
kind of what it does to your coordinates as you are wanting to 
feel safe in the broader society to face the prospect of this 
kind of rule coming at you.
    So, I will give the three of you a chance to respond and 
then I will be yielding back.
    Ms. Warbelow. Even prior to this rule LGBTQ people 
experienced discrimination in health care and were less likely 
to seek the health care they need because of experiences like 
rough handling by doctors and nurses, forced removal of 
partners and loved ones from hospital and doctors' rooms, 
intentional misgendering and harassment of patients.
    With this new rule in place it encourages more of that bad 
behavior and, importantly, it discourages LGBTQ patients from 
seeking recourse when they experience that discrimination and 
bad behavior.
    It doesn't have to be this way. There are religiously 
affiliated hospitals and doctors' offices who, in their faith 
tradition, would never marry a same-sex couple, who would not 
support a gender transition, frankly, who teach that you can't 
achieve entrance into the kingdom of Heaven based on a 
different belief and, yet, they ensure equal treatment of all 
of their patients and that is the model that needs to be 
followed nationwide.
    Reverend Sloan. I would just add, because I want to cede to 
Mr. Minton, but I would just add that, again, it is not simply 
hospital care.
    When you are getting down to the homeless population and to 
lower incomes it is the full variety of emergency services and, 
again, it is not simply just a matter of discrimination. It is 
a matter of life and death.
    Mr. Raskin. The gentleman's time has expired. Thank you.
    Oh, sorry.
    Mr. Minton. Thank you. I am so scared. I am terrified. I am 
terrified for myself and all of my community. I can't go to my 
nearest emergency room. When my pharmacist accidentally 
overdosed me, I and my life could have literally been in 
jeopardy.
    I had to travel miles further to go to an emergency room. I 
have two little nieces and a nephew who are the apples of my 
eye. If they turn out to be LGBTQ, I don't want them to be 
turned away from a hospital just like I was.
    I want America to get better. I don't want it to get worse. 
I don't want our community members to be turned away. I don't 
want them to be ushered away for care just like I was. You are 
saying that the arc of history bends toward justice. I want us 
to get back on track. So, I am terrified, and I thank you for 
asking me how I feel.
    Mr. Raskin. All right. Thank you. The gentleman's time has 
expired.
    Now we come to the gentlewoman from California, Ms. Porter, 
who is recognized for five minutes of questioning.
    Ms. Porter. Mr. Chair, I would like to enter into the 
record the testimony of David Dixon from Rancho Santa 
Margarita, a town in my district in Orange County.
    Mr. Raskin. Without objection it is entered.
    Ms. Porter. David Dixon and his husband were foster parents 
while living in Georgia and were told on several occasions that 
they were not receiving calls for placement because they were 
a, quote, ``nontraditional family,'' quote.
    Mr. Dixon and his husband were finally able to have 
children placed with them. But then when they wanted to adopt 
these foster youth, the foster care system dropped David and 
his name from all the paperwork.
    Only his husband was able to formally adopt the children. 
He was no longer recognized as their parent and had to fight to 
be added as a second parent, an experience that he describes 
as, quote, ``humiliating and frightening,'' unquote.
    Mr. Sloan, could you elaborate for me about how prospective 
LGBTQ parents have faced unnecessary discrimination while 
adopting children from religious organizations?
    Reverend Sloan. Yes. Thank you for asking this question.
    We hear this all the time. There are stories constantly of 
applications to foster or to adopt being shuffled to the bottom 
of the pile and just running into their peers from the classes 
and all of their peers had--who were straight have kids and 
they still don't.
    Ms. Porter. Absolutely. I want to make sure the committee 
is aware of data from the UCLA Law School showing that 
significantly more LGBTQ parents are raising an adopted or 
foster child compared to male and female couples--male-female 
couples.
    Assuming this trend continues, I have serious concerns that 
we will have children who will not be adopted or fostered when 
there are prospective loving parents who are ready and able to 
raise them, and the reason that these kids will not be fostered 
or adopted is because of discrimination under the protection of 
the religious freedom rule.
    Mr. Sloan, what do you think makes good characteristics in 
an application for foster parents and do you have any concerns 
that you would have for prospective parents who identify as 
LGBTQ?
    Reverend Sloan. No. Actually, LGBTQ parents and the 
children of those--of those parents are shown consistently to 
rank equal if not above in classic determinators like high 
school graduation, college graduation, emotional stability.
    So, I have zero concerns about LGBTQ people being able to 
parent. I also--we are also sitting on a future Millennial--63 
percent of Millennial LGBTQ people plan on forming families, 
and so the pool for placements for children will grow and if we 
have discrimination the 20,000 kids who age out every year will 
not be finding homes.
    Ms. Porter. And I just want to emphasize and get your 
thoughts on how these religious freedom rules are creating an 
economic issue.
    So, I wonder if any of you have thoughts, starting with 
you, Mr. Sloan, about how the--there is a real cost to 
taxpayers, not to mention the very real human costs that come 
because more children remain in foster care or adoptive 
services because of the religious freedom rule.
    Reverend Sloan. Yes. So, the costs are exponential and they 
don't simply stop when a child ages out of the foster care or 
the child service system.
    Children who do not find placement and do not get adopted 
are much more likely to become incarcerated or to live in 
extreme poverty, remaining a tax--a burden on our system and at 
the same time as they are the real victims.
    Ms. Porter. Yes. I just want to hold up again for the 
witnesses the picture of this amazing family that lives in my 
district, and when I came into the hearing earlier this morning 
I have the privilege to sit next to my colleague, 
Representative Haaland, and we are both single mothers.
    And so, language about broken families or a family being a 
man and a woman--I remember I wrote to Deb, what does that mean 
about our families that we are proudly raising.
    I just want to say that this fight, while it is very much a 
fight for the LGBTQ community, we also see a lot of the same 
kind of language and same kind of hostility to those who may be 
parenting alone.
    I want you to know as the first single mother of young 
children to be serving in the U.S. Congress that I am all in 
for loving families, and I don't like labels like traditional 
and nontraditional because, to me, the only family that matters 
is a loving one.
    Reverend Sloan. Believe me, we are all in with you as well.
    Ms. Porter. Thank you. I yield back.
    Mr. Raskin. All right. And on that lovely warm note, I am 
going to start to bring things to a close here.
    First, without objection, I am going to enter into the 
record letters and statement from individuals and organizations 
including the following: Queer Eye's Karamo Brown, Leslie 
Michelle McMurray, numerous LGBTQ children and parents who have 
been discriminated against in foster care and adoption who have 
written us, Americans United, CenterLink, Family Equality, 
GLSEN, Interfaith Alliance, the National Center for Lesbian 
Rights, and Congressman Raul Grijalva, all of whom are standing 
in solidarity with the LGBT community today.
    Without objection, I will enter those.
    Mr. Raskin. I want to thank all of our witnesses for their 
terrific testimony today: Mr. Olivares, Mr. Minton, Ms. 
Warbelow, Mr. Sasser, Reverend Sloan. We are very grateful to 
all of you for coming and giving us your insight.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to you for 
your response. I ask our witnesses to please respond as 
promptly as you are able so we can complete the record.
    I want to thank my friend, Mr. Meadows, for his 
participation and patience today.
    And with that, this hearing is adjourned.
    [Whereupon, at 12:14 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
